 OFFICE OF JUSTICE PROGRAMS

ANNUAL FINANCIAL STATEMENTS

      FISCAL YEAR 2012

        U.S. Department of Justice

      Office of the Inspector General

               Audit Division


           Audit Report 13-13

             January 2013

              OFFICE OF JUSTICE PROGRAMS

             ANNUAL FINANCIAL STATEMENTS

                   FISCAL YEAR 2012


               OFFICE OF THE INSPECTOR GENERAL

                  COMMENTARY AND SUMMARY


      This audit report contains the Annual Financial Statements of the
Office of Justice Programs (OJP) for the fiscal years (FY) ended
September 30, 2012, and September 30, 2011. Under the direction of the
Office of the Inspector General (OIG), KPMG LLP performed OJP’s audit in
accordance with auditing standards generally accepted in the United States
of America. The audit resulted in an unqualified opinion on the FY 2012
financial statements. An unqualified opinion means that the financial
statements present fairly, in all material respects, the financial position and
the results of the entity’s operations in conformity with U.S. generally
accepted accounting principles. For FY 2011 OJP also received an
unqualified opinion on its financial statements (OIG Report No. 12-18).

       KPMG LLP also issued reports on internal control over financial
reporting and on compliance and other matters. The auditors identified one
significant deficiency in the FY 2012 Independent Auditors’ Report on
Internal Control over Financial Reporting. The significant deficiency related
to weaknesses in system software change management. Specifically, OJP
needs to improve oversight of its configuration management process.

      No instances of non-compliance or other matters that are required to
be reported under Government Auditing Standards were identified during the
audit in the FY 2012 Independent Auditors’ Report on Compliance and Other
Matters. Additionally, KPMG LLP’s tests disclosed no instances in which OJP’s
financial management systems did not substantially comply with the Federal
Financial Management Improvement Act of 1996.

       The OIG reviewed KPMG LLP’s reports and related documentation and
made necessary inquiries of its representatives. Our review, as
differentiated from an audit in accordance with Government Auditing
Standards, was not intended to enable us to express, and we do not
express, an opinion on OJP’s financial statements, conclusions about the
effectiveness of internal control, conclusions on whether OJP’s financial
management systems substantially complied with the Federal Financial
Management Improvement Act of 1996, or conclusions on compliance with
laws and regulations. KPMG LLP is responsible for the attached auditors’



                                      -i-
reports dated November 5, 2012, and the conclusions expressed in the
reports. However, our review disclosed no instances where KPMG LLP did
not comply, in all material respects, with auditing standards generally
accepted in the United States of America.




                                   - ii -
                   OFFICE OF JUSTICE PROGRAMS

                  ANNUAL FINANCIAL STATEMENTS

                        FISCAL YEAR 2012


                           TABLE OF CONTENTS


                                                                               PAGE


MANAGEMENT’S DISCUSSION & ANALYSIS..............................................3


INDEPENDENT AUDITORS’ REPORTS


   REPORT ON FINANCIAL STATEMENTS ............................................... 23


   REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING ........... 25


   REPORT ON COMPLIANCE AND OTHER MATTERS................................ 29


PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES


   CONSOLIDATED BALANCE SHEETS ................................................... 32


   CONSOLIDATED STATEMENTS OF NET COST ..................................... 33


   CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION ............ 34


   COMBINED STATEMENTS OF BUDGETARY RESOURCES ....................... 36


   NOTES TO THE PRINCIPAL FINANCIAL STATEMENTS .......................... 38


REQUIRED SUPPLEMENTARY INFORMATION


   COMBINING STATEMENTS OF BUDGETARY RESOURCES...................... 66


REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION


   CONSOLIDATED STEWARDSHIP INVESTMENTS .................................. 71


OTHER ACCOMPANYING INFORMATION


   COMBINED SCHEDULE OF SPENDING ............................................... 75


APPENDIX


   OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY

     OF ACTIONS NECESSARY TO CLOSE THE REPORT .......................... 79

This page intentionally left blank.
Management’s Discussion and Analysis


              Unaudited





              -1-
This page intentionally left blank.




                -2-
                Management’s Discussion and Analysis




                               U.S. DEPARTMENT OF JUSTICE

                              OFFICE OF JUSTICE PROGRAMS

                           MANAGEMENT’S DISCUSSION & ANALYSIS

                                       (UNAUDITED)


BACKGROUND
The Department of Justice (DOJ, or Department), Office of Justice Programs (OJP), established by the
Justice Assistance Act of 1984 and reauthorized in 2005, provides federal leadership in developing the
nation’s capacity to prevent and control crime, administer justice, and assist crime victims. OJP strives
to make the nation’s criminal and juvenile justice systems more responsive to the needs of state, local,
and tribal governments and their citizens. OJP partners with federal, state, and local agencies, and
national and faith/community-based organizations to develop, operate, and evaluate a wide range of
criminal and juvenile justice programs. These partnerships also provide resources to more effectively
fight crime and improve the quality of life and sense of safety in communities across the nation.

OJP administers formula and discretionary grant programs, and provides training and technical assistance
on evidence-based practices through programs developed and funded by its bureaus and program offices.
Although OJP staff conduct some research and provide technical assistance, the bulk of OJP’s resources
for achieving its goals are dedicated to federal financial assistance for practitioners, state and local
governments and agencies, scholars, and experts. OJP awards formula grants to state agencies that
administer drug control, criminal justice system improvement, juvenile justice, and victim compensation
and assistance programs. State agencies also utilize OJP funds to award subgrants to units of state and local
governments to accomplish program goals. OJP awards discretionary grants to a variety of state, local,
private, and non-profit organizations through competitive solicitations and invited solicitations.

MISSION

Mission
To increase public safety and improve the fair administration of justice across America through
innovative leadership and programs.

Vision
To be the premier resource for the justice community by:

   •	 Providing and coordinating information, research and development, statistics, training, and 

      support to help the justice community build the capacity it needs to meet its public safety

      goals. 


   •	 Embracing local decision-making, while encouraging local innovation through national

      policy leadership.





U.S. Department of Justice



                                                -3-
                Management’s Discussion and Analysis




ORGANIZATION STRUCTURE
OJP’s organizational structure reflects a centralized, transparent, and client-based approach to
accomplishing its mission. The Office of the Assistant Attorney General (OAAG) is responsible for
overall management and oversight of OJP, setting policy, and ensuring that OJP’s policies and
programs reflect the priorities of the President, the Attorney General, and the Congress. OJP’s
organization chart has not changed since Congress approved it in April 2007. It should be noted that
Federal funding reductions in fiscal year (FY) 2011 included Community Capacity Development
Office’s (CCDO) Weed and Seed Program. Without funding for this program, CCDO closed, and all
remaining open, active CCDO grants were transferred to and consolidated with the Bureau of Justice
Assistance (BJA), effective June 5, 2011.




U.S. Department of Justice



                                               -4-
                 Management’s Discussion and Analysis




FINANCIAL STRUCTURE
In FY 2012, OJP’s financial structure was comprised of the following appropriated accounts:
   Research, Evaluation, and Statistics (formerly Justice Assistance): No-year discretionary
    assistance.
   State and Local Law Enforcement Assistance: No-year discretionary assistance.
   Juvenile Justice Programs: No-year discretionary assistance.
   Public Safety Officers’ Benefits Program: No-year mandatory and discretionary assistance.
   In addition, Congress provides an obligation limitation cap of $705 million for the Crime Victims
    Fund (CVF), no-year appropriated account, through Title V, Section 512 of the General Provisions in
    the FY 2012 Appropriations Act.
Below is a pie chart depicting OJP’s FY 2012 funding by appropriation.


                                          Office of Justice Programs
                                  FY 2012 Enacted Funding by Appropriation
                                             (Dollars in Thousands)
                                           Total Funding: $2,321,300
            Public Safety

           Officers' Benefits 
                                               Crime Victims
               Program,                                                          Funds,
             $78,300, 4%                                                      $705,000, 30%



         Juvenile Justice

           Programs,

         $262,500, 11%




          Research,

         Evaluation, 

     Statistics (formerly

     Justice Assistance),

        $113,000, 5%
                                                               State and Local

                                                                                   Law Enforcement

                                                                                      Assistance,

                                                                                   $1,162,500, 50%





U.S. Department of Justice



                                                -5-
                 Management’s Discussion and Analysis




Financial Responsibility
OJP is responsible for the fair presentation of its financial position as of September 30, 2012, and its
net cost, changes in net position, budgetary resources, Management’s Discussion and Analysis
(MD&A), Notes to the Financial Statements, Required Supplementary Information (RSI), Required
Supplementary Stewardship Information (RSSI), and Other Accompanying Information for the year
then ended, in conformity with accounting principles generally accepted in the United States of
America. OJP is responsible for establishing and maintaining internal controls and for implementing
and maintaining financial management systems that substantially comply with federal financial
management systems requirements, applicable federal accounting standards, and the U.S.
Government Standard General Ledger at the transaction level.

OJP has several programs reported under the RSSI, of which the most materially significant
programs are the Correctional Systems and Correctional Alternatives for Tribal Lands (CSCATL)
and the Violent Offender Incarceration and Truth-In-Sentencing (VOI/TIS) incentive grant programs.
Both programs provide grants for the purposes of building and expanding correctional facilities and
jails to increase secure confinement space for violent offenders and implementing correctional
alternatives to reduce reliance on incarceration. VOI/TIS funds are available to any of the 50 United
States, the District of Columbia, Puerto Rico, U.S. Virgin Islands, American Samoa, Guam, the
Northern Mariana Islands, and recognized Tribal governments; while CSCATL funds are available to
tribes within the 50 states. The Tribal Law and Order Act of 2010 (Public Law [P.L.] 111-211)
expanded the CSCATL grant program scope to include multi-purpose justice centers. The facilities
built or expanded with these funds constitute non-federal physical property. Upon completion, the
Bureau of Indian Affairs (BIA) of the Department of Interior, and/or tribal grantees are responsible
for supporting, operating, and maintaining the correctional facilities.

OJP is also responsible for the fair presentation of performance data consistent with the Government
Performance and Results Act Modernization Act of 2010 and the Government Performance and
Results Act of 1993 and reporting in the DOJ Performance and Accountability Report (PAR). OJP
maintains that the financial and performance data presented herein are valid and acceptably reliable.

OJP is highly committed to continuous improvement through its federal financial assistance
monitoring, internal audits, and related policy updates and training. OJP also actively participates in
government-wide grant simplification efforts and will participate in the DOJ Unified Financial
Management System (UFMS), upon its implementation. In compliance with the Federal Financial
Assistance Management Improvement Act of 1999, OJP continues efforts to streamline and
standardize grant management policies, procedures, and technologies across the agency to reduce
costs, improve customer service, and increase efficiency. The mission of the UFMS project is to
implement a department-wide secure, integrated, and unified financial management system,
supported by standard processes, to comply with applicable statutes and regulations.




U.S. Department of Justice



                                                 -6-
                Management’s Discussion and Analysis




ANALYSIS OF FINANCIAL STATEMENTS
The OJP Office of the Chief Financial Officer is responsible for developing, analyzing, and ensuring the
accuracy of financial statements for OJP.

Financial Results, Position and Condition
These financial statements have been prepared to report the financial position and results of operations
for OJP, pursuant to the requirements under Title IV of the Government Management Reform Act
(GMRA) of 1994 (P.L. 103-356). These statements have been prepared from OJP books and records, in
conformity with the formats prescribed by the Office of Management and Budget (OMB). The FY
2012 statement of changes in net position includes a cumulative result of operations of approximately
$9.3 billion and unexpended appropriations of approximately $3.5 billion. OJP has approximately
$12.6 billion in fund balances with Treasury of which $3.3 billion is available. Since OJP has
approximately $614 million in liabilities, OJP has sufficient resources to meet its requirements in the
near future. From FY 2011 to FY 2012, the significant decrease of $162 million in budgetary financing
sources is due primarily to the reduction in appropriations received of $255 million. There are no
known trends or demands, commitments, events or uncertainties that will impact or that are reasonably
likely to increase or decrease the liquidity of OJP in any material way.

Resources and Results
OJP’s FY 2012 and FY 2011 sources of resources and how resources were spent are displayed in Tables 1
and 2, respectively.

                       Table 1. Source of Office of Justice Programs Resources
                                    (Dollars in Thousands)

Source                                                FY 2012     FY 2011    Change %
Earned Revenue                                      $ 27,297 $        42,762   -36%
Budgetary Financing Sources
  Appropriation Received                            $1,638,300 $ 1,893,160     -13%
  Appropriation Transferred-In/Out                  $ (8,470) $      200,344  -104%
  Nonexchange Revenues                              $2,796,548 $ 1,998,729      40%
  Other Adjustments and Budgetary Financing Sources $ (55,000) $    (45,365)    21%
Other Financing Sources
  Transfers In/Out Without Reimbursement            $     2,295 $     10,600   -78%
  Imputed Financing from Cost Absorbed by Others    $     4,474 $      5,265   -15%
Total                                               $4,405,444 $ 4,105,495       7%




U.S. Department of Justice



                                                -7-
                 Management’s Discussion and Analysis




                     Table 2. How Office of Justice Programs Resources are Spent
                                       (Dollars in Thousands)

 Strategic Goal (SG)                                             FY 2012                FY 2011      Change %
 SG 2: Prevent Crime, Protect the Rights of the
 American People, and Enforce Federal Law
                                             Gross Cost          $   998,795        $    1,004,443
                                  Less: Earned Revenue           $     4,839        $        7,489
                                               Net Cost          $   993,956        $      996,954      -0.3%
 SG 3: Ensure and Support the Fair, Impartial,
 Efficient, and Transparent Administration of
 Justice at the Federal, State, Local, Tribal, and
 International Levels
                                             Gross Cost          $ 2,465,313        $ 2,730,468
                                  Less: Earned Revenue           $    22,458        $    35,273
                                               Net Cost          $ 2,442,855        $ 2,695,195         -9.4%

                                       Total Gross Cost          $ 3,464,108        $    3,734,911
                           Less: Total Earned Revenue            $    27,297        $       42,762
                           Total Net Cost of Operations          $ 3,436,811        $    3,692,149      -6.9%

2012 Financial Highlights
OJP’s FY 2012 budgetary resources totaled $2.7 billion. Of this amount, OJP obligated approximately
$2.5 billion, resulting in an unobligated balance of $178 million. The net cost of operations totaled
approximately $3.4 billion for FY 2012.

In FY 2012, Other Liabilities decreased by $9.7 million, due to a decrease of $8.6 million in the Office of
Community Oriented Policing advances.

On January 4, 2012, the Department released the DOJ Strategic Plan for Fiscal Years 2012-2016
(Strategic Plan or Plan), which provides a guide for describing and accomplishing the Department
priorities over the next five years. While the strategic goals are similar to those in the prior version,
this Plan places a stronger emphasis on rule of law, international partnerships, reinvigorating the
traditional missions of the Department, and restoring credibility in this institution.

This Plan describes the Department’s strategies to support its top priority, which is, and will continue
to be, combating terrorism. At the same time, the Plan describes the Department’s work and
responsibilities that extend over the broad spectrum of American life. These responsibilities include
making streets safe for families, ridding communities of illegal guns and drugs, stopping those that
would undermine the financial stability of communities and the Nation, protecting children and other
vulnerable persons from predators, protecting the environment, and preserving civil liberties and
freedoms.


U.S. Department of Justice



                                                  -8-
                   Management’s Discussion and Analysis




This Strategic Plan responds to these challenges through three strategic goals focused on advancing
the Department’s priorities and reflecting the outcomes the American people deserve.

These goals are:

Goal 1: Prevent Terrorism and Promote the Nation’s Security Consistent with the Rule of Law

Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law

Goal 3: Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice
at the Federal, State, Local, Tribal, and International Levels

OJP will begin the planning and coordination phase in preparation of revising its OJP strategic plan
to conform to the Department’s new strategic plan, to include OJP strategic goals by 2014. OJP
strategic plan will link directly to two of the DOJ Strategic Goals. These Goals are: Strategic Goal 2:
Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law; and Strategic
Goal 3: Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice
at the Federal, State, Local, Tribal, and International Levels.

Strategic Goal 2: Prevent Crime, Protect the Rights of the American People, and Enforce Federal
Law includes the America’s Missing: Broadcast Emergency Response (AMBER) Program.

Strategic Goal 3: Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration
of Justice at the Federal, State, Local, Tribal, and International Levels, includes several programs, but
not limited to: the DNA Backlog Reduction Program, the Residential Substance Abuse Treatment
Program, and the Drug Court Program.

The following section describes OJP’s spending and its relationship to the DOJ Strategic
Plan. During FY 2012, $3.46 billion of budgetary resources were expended. DOJ Strategic Goal 2
activities accounted for net cost decreases of 0.3% and DOJ Strategic Goal 3 activities accounted for
net cost decreases of 9.4%, compared to FY 2011 net costs.




U.S. Department of Justice



                                                 -9-
                   Management’s Discussion and Analysis




            How the Office of Justice Programs Resources were Spent by DOJ Strategic Goal

                                               FY 2012

                                             (Dollars in Thousands )
                                    Total Net Cost of Operations: $3,436,811


                                                                                        Strategic Goal 3:
                                                                                   Ensure and Support the
                                                                                   Fair, Impartial, Efficient,
                                                                                       and Transparent
                                                                                   Administration of Justice
                                                                                     at the Federal, State,
      Strategic Goal 2: Prevent
                                                                                      Local, Tribal, and
      Crime, Protect the Rights
                                                                                     International Levels
       of the American People,
                                                                                        $2,442,855; 71%
      and Enforce Federal Law
            $993,956; 29%




PERFORMANCE INFORMATION

Data Reliability and Validity
OJP views data reliability and validity as critically important in the planning and assessment of our
performance. As such, this document includes a discussion of data validation, verification, and any
identified data limitations for each performance measure presented. Performance data are considered
reliable if transactions and other data that support reported performance measures are properly
recorded, processed, and summarized to permit the preparation of performance information in
accordance with criteria stated by management. Performance data need not be perfect to be reliable,
particularly if the cost and effort to secure the best performance data possible will exceed the value of
any data so obtained.




U.S. Department of Justice



                                                  - 10 -
                Management’s Discussion and Analysis




FY 2012 REPORT ON SELECTED RESULTS


DOJ STRATEGIC GOAL 2: Prevent Crime, Protect the Rights of the American People, and
Enforce Federal Law
(29% of OJP’s net costs support this Goal.)


PROGRAM: America’s Missing: Broadcast Emergency Response (AMBER)

Background/Program Objectives: Research shows that it is critical to post and resolve AMBER
Alerts as soon as possible because abductors who murder children are most likely to do so within four
hours following the abduction. The Office of Juvenile Justice and Delinquency Prevention (OJJDP)
administers OJP’s AMBER Program, which supports best practices training and technical assistance
for state and regional AMBER Alert teams. At the end of 2001, there were only four statewide
AMBER Alert plans. Today, all 50 states, two U.S. territories (the U.S. Virgin Islands and Puerto
Rico), and fifteen Indian tribes have plans in place. The AMBER Alert strategy focuses on:
         (1) Strengthening the existing AMBER Alert system;
         (2) Expanding the scope of AMBER Alert; and
         (3) Enhancing communication and coordination.

Performance Measure: Percent of children recovered within 72 hours of issuing an AMBER Alert

Discussion of FY 2012 Results: The target for FY 2012 is to recover 85 percent of children within 72
hours of issuing an AMBER Alert. The actual was 91.5 percent and exceeded the estimated target
value by 6.5 percent.

FYs 2003 – 2006: N/A (Measure developed in FY 2007)

              Figure 3. AMBER Alert - Percent of Children Recovered Within 72 Hours

               100%
   85.3%     81.9%        81.7%   86.9%      90.0%     91.5%
                                                                                   85.0%
                80%

                                                                                           Actual
                60%

                                                                                           Target
                40%


                20%


                0%
                       FY 2007   FY 2008   FY 2009     FY 2010   FY 2011      FY 2012




U.S. Department of Justice



                                                  - 11 -
                Management’s Discussion and Analysis




Data Definition: The Amber Alert recovery rate is determined by taking the total number of
children who are recovered within 72 hours of issuance of an Amber Alert, divided by the total
number of children for whom AMBER Alerts were issued for the fiscal year. The result is expressed
as a percentage. Children from cases classified as hoax or unfounded after intake are excluded from
the measure.

Data Collection and Storage: Data are collected from law enforcement and the National Crime
Information Center database, which stores abducted children’s names and other critical data
elements.

Data Validation and Verification: Data for this measure are validated and verified through a review
of progress reports submitted by grantees, telephone contacts, and monitoring.

Data Limitations: None known at this time.


DOJ STRATEGIC GOAL 3: Ensure and Support the Fair, Impartial, Efficient, and Transparent
Administration of Justice at the Federal, State, Local, Tribal, and International Levels
(71% of OJP’s net costs support this Goal.)


PROGRAM: DNA Backlog Reduction

Background/Program Objectives: The National Institute of Justice (NIJ) funds and administers the
DNA Backlog Reduction Program to increase the capacity of the nation’s public DNA laboratories
and to reduce the number of backlogged casework DNA samples awaiting analysis and entry into the
Combined DNA Index System (CODIS). The overarching goal of the program is to reduce the size of
the DNA casework backlog so that more DNA sample profiles are available in CODIS for matching
to forensic cases, offenders, and arrestees. CODIS matches offer powerful investigative leads that
can solve past crimes and prevent new crimes from occurring. The short-term goal is to reduce the
DNA casework backlog by providing funding for laboratories to purchase supplies to test cases in­
house, to fund overtime for existing personnel to test cases in-house, or to outsource the DNA
samples to another qualified laboratory. The long-term goal is to increase the laboratories’ capacity
by providing funding to hire additional personnel, purchase automated equipment, and validate new
chemistries. In the past, funds awarded for analysis of backlogged forensic casework DNA samples
were only available for the analysis of violent offense samples (i.e., murder, non-negligent
manslaughter, and forcible rape); however, from FY 2008 to date, funds can be used for any criminal
DNA case. OJP’s role in reducing the DNA backlog is to provide funding to qualified labs that apply
for federal funding to assist in analyzing cases. Since 2011, states have received limited
supplemental funds for the state designated DNA database laboratories to reduce backlogs of
offender database samples or to build the capacity of the database unit.




U.S. Department of Justice



                                              - 12 -
                Management's Discussion and Analysis




Performance Measure: Percent reduction in DNA backlog (casework only)

Discussion ofFY 2012 Results: OJP's FY 2012 target for reducing the DNA casework backlog is
25 percent. The actual reduction was 31.5% and exceeded the estimated target value by 6.5%.

FY 2003: NIA (Measure developed in FY 2004)

                      Figure 2. Percent Reduction in DNA Backlog (Casework Only)

                50%

                40%

                30%
                                                                                                CActual
                20%
                                                                                                .Target
                10%

                 0%
                      FY 2004 FY 2005 FY 2006 FY 2007 FY 2008 FY 2009 FY 2010 FY 2011 FY 2012




Data Defmition: NIJ computes this measure by calculating the cumulative number of cases
requested to be worked with federal overtime, supply, andlor outsourcing assistance as part of the FY
2012 solicitation process. This number is divided by the total number of backlogged DNA cases as of
December 31 of the year prior to when solicitations are released (for FY 2012, the number of cases in
the backlog as of December 31,2011). Because the size of the backlog is assessed at the end of each
calendar year, the number of samples in the backlog tends to vary at other times as more or fewer
samples are submitted for analysis and tested. For example, when more samples are submitted than
tested, the number of samples in the backlog necessarily grows. Likewise, when more samples are
tested than were submitted for analysis, the number of samples in the backlog shrinks.

Data Collection andStorage: NIJ program managers collect and maintain data for this measure in
office files.

Data Validation and Verification: The number of cases funded for analysis in FY 2012 is computed
from applications submitted by grantees to the FY 2012 DNA Backlog Reduction Program. During
the course of the grant, which can take up to three years to complete, grant managers monitor each
grant to ensure that grantees are meeting or achieving the targets they proposed in their applications.

Data Limitations: None known at this time.




u.S. Department ofJustice



                                                    - 13 ­
                Management’s Discussion and Analysis




PROGRAM: Residential Substance Abuse Treatment (RSAT)

Background/Program Objectives: RSAT formula grant funds are used to implement four types of
programs: 1) residential substance abuse treatment programs that provide individual and group
treatment activities for offenders in residential facilities operated by state correctional agencies;
2) jail-based substance abuse programs that provide individual and group treatment activities for
offenders in jails and local correctional facilities; 3) post-release treatment components that provide
treatment following inmates’ release from custody; and 4) aftercare components that require states to
give preference to sub-grant applicants that provide aftercare services to program participants. For all
programs, at least 10 percent of the total state allocation is made available to local correctional and
detention facilities for either residential substance abuse treatment programs or jail-based substance
abuse treatment programs.

Performance Measure: Number of participants in the Residential Substance Abuse Treatment (RSAT)
Program

Discussion of CY 2012 Results: The target for Calendar Year (CY) 2012 is to have 30,000 participants
in RSAT programs. Data for this measure are collected on a quarterly basis and CY 2012 data will be
available in June 2013.

Discussion of CY 2011 Results: The target for CY 2011 was to have 28,000 participants in RSAT
programs. Data were analyzed and 29,358 participants were served in CY 2011. The target was exceeded
by 1,358 participants.

                                Figure 4. Number of Participants in RSAT

        45,000
                                                 39,159
        40,000
          33,239 31,740                                           29,358
        35,000
 25,521                                  28,308           29,872      28,000 30,000
                                        27,756 26,991
        30,000
                                                                                      Actual
        25,000

        20,000
                                                                                      Target
        15,000

        10,000

         5,000

             0

                 CY 2003 CY 2004 CY 2005 CY 2006 CY 2007 CY 2008 CY 2009 CY 2010 CY 2011 CY 2012


Data Definitions: The number of RSAT participants is the count of state and local program
participants during the reporting period. The number of participants is collected from grantees.

Data Collection and Storage: Program managers obtain data from reports submitted by grantees
into the BJA Performance Measurement Tool (PMT), an on-line data collection tool.

Data Validation and Verification: Data are validated and verified through four steps including
program managers’ programmatic monitoring and electronic controls over the data. This oversight
includes a review of all relevant material to determine grant performance, desk reviews of grantee
support documentation, telephone contacts, and on-site grant monitoring.

U.S. Department of Justice



                                                 - 14 -
                Management’s Discussion and Analysis




   1.	 BJA applies front-end business rules and logic to the data grantees enter into the PMT so that
       erroneous data values are flagged. Grantees receive an error message if a required data field
       is omitted, or if a value entered exceeds a pre-established value range.
   2.	 BJA applies data cleaning techniques to the back-end data when analyzing it after reporting is
       complete. This includes reviewing PMT data for missing and duplicate data that can lead to
       division errors and outcome values over 100 percent. Follow-up phone calls or outreach may
       be conducted during this step.
   3.	 BJA grant managers review and validate performance measure data during on-site visits,
       using specific questions pertaining to data included in the checklist. BJA conducts on-site
       monitoring for approximately five percent of active grants.
   4.	 Outside of the on-site visit process, BJA grant managers review and approve the progress
       reports. As a result of this review, the BJA grant manager may contact the grantee to ask
       them to explain or resolve any perceived inconsistent or missing performance measure data.

Data Limitations: None known at this time.

PROGRAM: Drug Court

Background/Program Objectives: BJA and OJJDP administer OJP’s Drug Court program. The Drug
Court program was established in 1995 to provide financial and technical assistance to states, state
courts, local courts, units of local government, and tribal governments in order to establish drug
treatment courts. Drug courts employ an integrated mix of treatment, drug testing, incentives, and
sanctions to break the cycle of substance abuse and crime. Since 1989, more than 2,500 drug courts
have been established in a number of jurisdictions throughout the country. Currently, every state and
two U.S. territories have established or planned one or more drug courts in their jurisdiction.

The need for drug treatment services is tremendous and OJP has a long history of providing
resources to break the cycle of drugs and violence by reducing the demand, use, and trafficking of
illegal drugs. Thirty-six percent of the 4.9 million people, who reported to the 2010 National Crime
Victimization Survey that they had been a victim of violence, believed that the perpetrator was using
drugs, alcohol, or both drugs and alcohol. Further, 54 percent of jail inmates were abusing or
dependent on drugs, according to Bureau of Justice Statistics (BJS) 2002 Survey of Inmates in Local
Jails. Correspondingly, 53 percent of state inmates, and 45 percent of federal inmates abused or were
dependent on drugs in the year before their admission to prison, according to the BJS 2004 Surveys
of Inmates in State and Federal Correctional Facilities.

Performance Measure: Graduation rate of program participants in the Drug Court Program (adult drug
court participants only).

Discussion of FY 2012 Results: The FY 2012 target for the Drug Court graduation rate is 48
percent. Data for this measure are collected on a quarterly basis, and FY 2012 data will be available
in November 2012.


U.S. Department of Justice



                                               - 15 -
                Management’s Discussion and Analysis




FYs 2003 – 2006: N/A (Measure developed in FY 2005, using a different methodology. As a result, data
from FY 2005 and FY 2006 are not included)

                          Figure 5. Graduation Rate of Drug Court Participants
                           65.0%     63.2%
                    70%                         57.3%
                    60%                                  52.6%
                    50%                                            43.0%        48.0%
                    40%                                                                 Actual
                    30%
                                                                                        Target
                    20%
                    10%
                     0%
                           FY 2007   FY 2008   FY 2009   FY 2010   FY 2011   FY 2012


Data Definitions: The graduation rate is calculated by dividing the number of graduates (successful
completions) during the reporting period (numerator) by the sum of the successful and unsuccessful
completions (denominator). Unsuccessful completions stem from participants’ inability to complete
all program requirements due to court or new criminal involvement, lack of engagement, or
absconding.

Data Collection and Storage: Grantees submit data to BJA’s PMT, which is where the data are
maintained.

Data Validation and Verification: Data are validated and verified through a four-step process,
including program managers’ programmatic monitoring and electronic controls over the data. This
oversight includes a review of all relevant material to determine grant performance, desk reviews of
grantee support documentation, telephone contacts, and on-site grant monitoring.

   1.	 BJA applies front-end business rules and logic to the data grantees enter into the PMT so that
       erroneous data values are flagged. Grantees receive an error message if a required data field
       is omitted, or if a value entered exceeds a pre-established value range.
   2.	 BJA applies data cleaning techniques to the back-end data when analyzing it after reporting is
       complete. This includes reviewing PMT data for missing and duplicate data that can lead to
       division errors and outcome values over 100 percent. Follow-up phone calls or outreach may
       be conducted during this step.
   3.	 BJA grant managers review and validate performance measure data during on-site visits,
       using specific questions pertaining to data included in the checklist. BJA conducts on-site
       monitoring for approximately five percent of active grants.
   4.	 Outside of the on-site visit process, BJA grant managers review and approve the progress
       reports. As a result of this review, the BJA grant manager may contact the grantee to ask
       them to explain or resolve any perceived inconsistent or missing performance measure data.




U.S. Department of Justice



                                                   - 16 -
                Management’s Discussion and Analysis




Data Limitations: Graduation rates are not reported for years prior to FY 2007 because the formula
for calculating the rate was changed that year to make it more accurate. Prior to FY 2007, the
formula divided the number of graduates by the total number of drug court participants, regardless of
eligibility for graduation and continued program participation and compliance, which resulted in
lower graduation rates. The reporting cycle for these data is July 1- June 30.

However, in FY 2012, BJA revised the drug court performance measures to address limitations.
Grantees began reporting on the new performance measures on October 1, 2011; therefore, the
reporting cycle changed to October 1, 2011 – September 30, 2012.

Discontinued OJP Performance Measures From FY 2011 to FY 2012
There are no measures that have been discontinued from FY 2011 to FY 2012.


ANALYSIS OF SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE

Federal Managers’ Financial Integrity Act of 1982

The Federal Managers’ Financial Integrity Act of 1982 (Integrity Act or FMFIA) provides the
statutory basis for management’s responsibility for and assessment of internal accounting and
administrative controls. Such controls include program, operational, and administrative areas, as
well as accounting and financial management. The Integrity Act requires federal agencies to
establish controls that reasonably ensure obligations and costs are in compliance with applicable law;
funds, property, and other assets are safeguarded against waste, loss, unauthorized use, or
misappropriation; and revenues and expenditures are properly recorded and accounted for, in order to
maintain accountability over the assets. The Integrity Act also requires agencies to annually assess
and report on the internal controls that protect the integrity of federal programs (FMFIA §2) and
whether financial management systems conform to related requirements (FMFIA §4).

Guidance for implementing the Integrity Act is provided through OMB Circular A-123. In addition
to requiring agencies to provide an assurance statement on the effectiveness of programmatic internal
controls and conformance with financial systems requirements, the Circular requires agencies to
provide an assurance statement on the effectiveness of internal controls over financial reporting. The
Department requires components to provide both of the assurance statements in order to have the
information necessary to prepare the agency assurance statements.

FMFIA Assurance Statement

OJP management is responsible for establishing and maintaining effective internal controls and a
financial management system that meet the objectives of the FMFIA. In accordance with OMB
Circular A-123, OJP management conducted its annual assessment of the effectiveness of internal
controls to support effective and efficient programmatic operations, reliable financial reporting, and
compliance with applicable laws and regulations (FMFIA § 2). OJP management also assessed
whether its financial management system conforms to financial system requirements (FMFIA § 4).

U.S. Department of Justice



                                                - 17 -
                Management’s Discussion and Analysis




Based on the results of the assessments, OJP management can provide reasonable assurance that
OJP’s internal controls and financial management system meet the objectives of the FMFIA. Internal
controls were operating effectively as of September 30, 2012, and the assessments identified no
material weaknesses in the design or operation of the controls or any non-conformances required to
be reported.

In accordance with Appendix A of OMB Circular A-123, OJP management conducted its assessment
of the effectiveness of internal control over financial reporting, which included the safeguarding of
assets and compliance with applicable laws and regulations. Based on the results of the assessment,
OJP management can provide reasonable assurance that OJP’s internal control over financial
reporting was operating effectively as of September 30, 2012, and the assessment identified no
material weaknesses in the design or operation of the controls.

OJP also assessed whether its financial management systems conform to government-wide
requirements, as required by Section 4 of the FMFIA. Based on the results of this assessment, OJP
can provide reasonable assurance that, as of September 30, 2012, its systems substantially conform to
government-wide requirements, except for non-conformances related to information system general
controls noted for account management, annual certification, configuration management,
identification and authentication, and vulnerability management. OJP has submitted a corrective
action plan that includes automatic disablement of accounts, timely annual recertification,
implementing a new secure configuration checklist, enhancing password complexity settings, and
timely addressing detected vulnerabilities to remediate the reported non-conformances.

Federal Financial Management Improvement Act of 1996

The Federal Financial Management Improvement Act of 1996 (FFMIA) was designed to improve
federal financial and program managers’ accountability, provide better information for decision-
making, and improve the efficiency and effectiveness of federal programs. FFMIA requires agencies
to have financial management systems that substantially comply with federal financial management
systems requirements, applicable federal accounting standards, and the U.S. Standard General Ledger
(USSGL) at the transaction level. The FFMIA also requires independent auditors to report on agency
compliance with the three requirements in the financial statement audit report. The Federal
Information Security Management Act (FISMA) states that to be substantially compliant with
FFMIA, there are to be no significant deficiencies in information security policies, procedures, or
practices.

FFMIA Compliance Determination

During FY 2012, OJP assessed its financial management systems for compliance with FFMIA and
determined that they substantially comply with FFMIA. This determination is based on the results of
testing performed in accordance with OMB Circular A-123, Appendix A. Consideration was also
given to any issues identified during the financial statement audit.




U.S. Department of Justice



                                              - 18 -
                Management’s Discussion and Analysis




POSSIBLE FUTURE EFFECTS OF EXISTING EVENTS AND CONDITIONS

State, local, and tribal public safety agencies across the country continue to face significant
budget-related challenges that threaten their ability to deliver core services and maintain public
safety. It is in this context that OJP’s role becomes even more essential. During this time of
limited budget resources, OJP continues to use evidence and evaluation findings to help the
Federal Government and its state, local, and tribal partners make the most of the resources
entrusted to the agency by the nation’s taxpayers. OJP works closely with communities to help
them adopt evidence-based approaches that maximize resources and improve results. OJP also
encourages closer partnerships and collaborations, including those between law enforcement
agencies and research entities.


OTHER MANAGEMENT INFORMATION, INITIATIVES, AND ISSUES

OJP received $2.76 billion in Recovery Act funding in FY 2009 to assist state and local communities
with the prevention of crime, improvement of criminal justice systems, and crime victim
support, while contributing to job creation and providing much needed resources for states and local
communities. These funds are being administered through the BJA, BJS, NIJ, OJJDP, and the OVC.
These funds are being distributed through formula and discretionary grant programs. The bulk of
these funds ($1.98 billion) are being distributed through the Edward Byrne Memorial Justice
Assistance Grant Program, which supports all components of the criminal justice system, including
but not limited to, multijurisdictional drug and gang task forces; crime prevention and domestic
violence programs; and courts, corrections, treatment, and justice information sharing initiatives.
Please visit the OJP Recovery Act website, http://www.ojp.usdoj.gov/recovery/, for further details on
announcements, implementation, and reporting of Recovery Act funding and data.

IMPROPER PAYMENTS ELIMINATION AND RECOVERY ACT (IPERA) REPORTING

In accordance with OMB Circular A-123, Appendix C, Requirements for Effective Measurement
and Remediation of Improper Payments, and the Departmental guidance for implementing the
Improper Payments Elimination and Recovery Act (IPERA), the Department implemented a top-
down approach to assess the risk of significant improper payments across all five of the
Department’s mission-aligned programs, and to identify and recapture improper payments
through a payment recapture audit program. The approach promotes consistency across the
Department and enhances internal control related to preventing, detecting, and recovering
improper payments. Because of the OMB requirement to assess risk and report payment
recapture audit activities by agency programs, the results of the Department’s risk assessment
and recapture activities are reported at the Department-level only.
In accordance with the Departmental approach for implementing IPERA, OJP assessed its
activities for susceptibility to significant improper payments. OJP also conducted its payment


U.S. Department of Justice



                                              - 19 -
                Management’s Discussion and Analysis




recapture audit program in accordance with the Departmental approach. OJP provided the
results of both the risk assessment and payment recapture audit activities to the Department for
the Department-level reporting in the FY 2012 Performance and Accountability Report.

LIMITATIONS OF THE FINANCIAL STATEMENTS

   The financial statements have been prepared to report the financial position and results of operations of
    OJP, pursuant to the requirements of 31 U.S.C. 3515(b).

   While the statements have been prepared from the books and records of OJP in accordance with
    U.S. generally accepted accounting principles for federal entities and the formats prescribed by

    OMB, the statements are in addition to the financial reports used to monitor and control

    budgetary resources, which are prepared from the same books and records.


   The statements should be read with the realization that they are for a component of the
    U.S. Government, a sovereign entity.




U.S. Department of Justice



                                               - 20 -
Independent Auditors’ Reports





          - 21 -
This page intentionally left blank.




               - 22 -
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                        Independent Auditors’ Report on Financial Statements


Inspector General
U.S. Department of Justice

Assistant Attorney General
Office of Justice Programs
U.S. Department of Justice

We have audited the accompanying consolidated balance sheets of the U.S. Department of Justice Office of
Justice Programs (OJP) as of September 30, 2012 and 2011, and the related consolidated statements of net
cost and changes in net position, and the combined statements of budgetary resources (hereinafter referred
to as “consolidated financial statements” or “basic financial statements”) for the years then ended. These
consolidated financial statements are the responsibility of OJP’s management. Our responsibility is to
express an opinion on these consolidated financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
OJP’s internal control over financial reporting. Accordingly, we express no such opinion. An audit also
includes examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
financial statements, assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall consolidated financial statement presentation. We believe
that our audits provide a reasonable basis for our opinion.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the U.S. Department of Justice Office of Justice Programs as of
September 30, 2012 and 2011, and its net costs, changes in net position, and budgetary resources for the
years then ended in conformity with U.S. generally accepted accounting principles.

As discussed in Note 1.W to the consolidated financial statements, OJP changed its presentation for
reporting the combined statement of budgetary resources in fiscal year 2012, based on new reporting
requirements under OMB Circular No. A-136, Financial Reporting Requirements. As a result, OJP’s
combined statement of budgetary resources for fiscal year 2011 has been adjusted to conform to the current
year presentation.

U.S. generally accepted accounting principles require that the information in the Required Supplementary
Information, including Management’s Discussion and Analysis, and Required Supplementary Stewardship
Information sections be presented to supplement the basic financial statements. Such information, although
                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.


                                                      - 23 -
Independent Auditors’ Report on Financial Statements
Page 2 of 2




not a part of the basic financial statements, is required by the Federal Accounting Standards Advisory
Board who considers it to be an essential part of financial reporting for placing the basic financial
statements in an appropriate operational, economic, or historical context. We have applied certain limited
procedures to the required supplementary information in accordance with auditing standards generally
accepted in the United States of America, which consisted of inquiries of management about the methods
of preparing the information and comparing the information for consistency with management’s responses
to our inquiries, the basic financial statements, and other knowledge we obtained during our audits of the
basic financial statements. We do not express an opinion or provide any assurance on the information
because the limited procedures do not provide us with sufficient evidence to express an opinion or provide
any assurance.

Our audits were conducted for the purpose of forming an opinion on the basic financial statements as a
whole. The information in the Other Accompanying Information section is presented for the purpose of
additional analysis and is not a required part of the basic financial statements. Such information has not
been subjected to the auditing procedures applied in the audits of the basic financial statements, and
accordingly, we do not express an opinion or provide any assurance on it.

In accordance with Government Auditing Standards, we have also issued our reports dated November 5,
2012, on our consideration of OJP’s internal control over financial reporting and our tests of its compliance
with certain provisions of laws, regulations, contracts, and grant agreements and other matters. The
purpose of those reports is to describe the scope of our testing of internal control over financial reporting
and compliance and the results of that testing, and not to provide an opinion on the internal control over
financial reporting or on compliance. Those reports are an integral part of an audit performed in
accordance with Government Auditing Standards and should be read in conjunction with this report in
assessing the results of our audits.




November 5, 2012




                                               - 24 -
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




             Independent Auditors’ Report on Internal Control over Financial Reporting


Inspector General
U.S. Department of Justice

Assistant Attorney General
Office of Justice Programs
U.S. Department of Justice

We have audited the consolidated balance sheets of U.S. Department of Justice Office of Justice Programs
(OJP) as of September 30, 2012 and 2011, and the related consolidated statements of net cost and changes
in net position, and the combined statements of budgetary resources (hereinafter referred to as
“consolidated financial statements”) for the years then ended, and have issued our report thereon dated
November 5, 2012. As discussed in Note 1.W to the consolidated financial statements, OJP changed its
presentation for reporting the combined statement of budgetary resources in fiscal year 2012, based on new
reporting requirements under OMB Circular No. A-136, Financial Reporting Requirements.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement.

The management of OJP is responsible for establishing and maintaining effective internal control over
financial reporting. In planning and performing our fiscal year 2012 audit, we considered OJP’s internal
control over financial reporting by obtaining an understanding of OJP’s internal control, determining
whether internal controls had been placed in operation, assessing control risk, and performing tests of
controls as a basis for designing our auditing procedures for the purpose of expressing our opinion on the
consolidated financial statements, but not for the purpose of expressing an opinion on the effectiveness of
OJP’s internal control over financial reporting. Accordingly, we do not express an opinion on the
effectiveness of OJP’s internal control over financial reporting. We did not test all internal controls
relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of
1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.


                                                       - 25 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 2 of 4




year 2012 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above. However, we identified a deficiency in internal
control over financial reporting described in the Exhibit that we consider to be a significant deficiency in
internal control over financial reporting. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough to merit
attention by those charged with governance.

OJP’s written response to the significant deficiency identified in our audit and presented in the Exhibit was
not subjected to the auditing procedures applied in the audit of OJP’s consolidated financial statements and,
accordingly, we express no opinion on it.

This report is intended solely for the information and use of OJP’s management, the U.S. Department of
Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified parties.




November 5, 2012




                                               - 26 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 3 of 4




                                                                                                  EXHIBIT


                                     SIGNIFICANT DEFICIENCY

This section contains our discussion of the significant deficiency we identified in internal control over
financial reporting.

                  SYSTEM SOFTWARE CHANGE MANAGEMENT NEEDS IMPROVEMENT

During the vulnerability assessment documentation review and network scanning, it was noted that OJP
continues to have improper configurations, missing patches, and default/insufficient passwords within their
environment. Many of these deficiencies were originally identified in prior years and continue to remain
unremediated in the current year. The deficiencies continue to exist because the OJP Information
Technology Security Division (ITSD) and the Enterprise Applications Support Division (EASD) are not
consistently communicating to ensure that vulnerabilities are remediated in a timely manner. When
vulnerabilities are not identified and remediated in a timely manner, the risk of data being compromised
increases.
OJP’s Vulnerability Management Program, Standard Operating Procedure, version 4.2, dated February 22,
2011, section 5.0, states that the Director of ITSD is responsible for reviewing vulnerability reports and
forwarding to senior management; keeping senior management informed of emerging trends and the status
of the overall IT security posture of the OJP enterprise; and managing resources for vulnerability mitigation
on security devices. Responsibilities of the Director of EASD include managing resources for vulnerability
mitigation on UNIX servers, Windows servers, Network Devices, and other system software.
DOJ, Information Technology Security Standard, version 1.3, dated February 2011, section 4.0, states that
DOJ Components must identify, report, and correct information system flaws; test software updates related
to flaw remediation for effectiveness and potential side effects on organizational information systems
before installation; and incorporate flaw remediation into the organizational configuration management
process. Further, DOJ Components must centrally manage the flaw remediation process and install
software updates automatically as well as remediate legitimate vulnerabilities within 30 days for high-risk
vulnerabilities and 90 days for moderate-risk vulnerabilities.
The National Institute of Standards and Technology Special Publication 800-53 Revision 3, Recommended
Security Controls for Federal Information Systems, System and Information Integrity, SI-2 Flaw
Remediation states that the organization identifies information systems containing software affected by
recently announced software flaws (and potential vulnerabilities resulting from those flaws) and reports this
information to designated organizational officials with information security responsibilities (e.g., senior
information security officers, information system security managers, information systems security officers).
The organization (including any contractor to the organization) promptly installs security-relevant software
updates (e.g., patches, service packs, and hot fixes). Flaws discovered during security assessments,
continuous monitoring, incident response activities, or information system error handling, are also
addressed expeditiously. Organizations are encouraged to use resources such as the Common Weakness
Enumeration or Common Vulnerabilities and Exposures databases in remediating flaws discovered in
organizational information systems. By requiring that flaw remediation be incorporated into the




                                               - 27 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 4 of 4




organizational configuration management process, it is the intent of this control that required/anticipated
remediation actions are tracked and verified.

We recommend OJP:

1.	 Conduct an enterprise-wide security configuration assessment of its environments (NextGen, ENS, E-
    Gov, etc.). (New)

    Management Response:

    In June and September 2012, the Office of Justice Programs (OJP), Office of the Chief Information
    Officer (OCIO) conducted an enterprise-wide security configuration assessment of its environments
    (NextGen, ENS, E-Gov, etc.). The OCIO is continuing to improve the assessment activity as a
    component of the overall vulnerability management program.

2.	 Prioritize vulnerabilities as part of its ongoing continuous monitoring activities. (New)

    Management Response:

    In June 2012, the OCIO revised the vulnerability program standard operating procedure (SOP) – OCIO 25,
    which added scanning responsibilities for two of the OCIO’s divisions to ensure staff flexibility on the
    discovery and remediation of vulnerabilities between the OCIO’s Information Technology Security
    Division’s (ITSD) assessments. Following the SOP revision, the OCIO then revised the vulnerability
    management process to address priorities as part of an overall risk management function. As the OCIO
    continues to refine the process and associated responsibilities, SOP OCIO 25 will be updated
    appropriately.

3.	 Management (Chief Information Officer and Deputy Chief Information Officer) ensure that the
    baseline configurations and the VMP process for communicating and mitigating vulnerabilities and
    verifying remediations are completed in accordance with OJP Policy between ITSD and EASD. (New)

    Management Response:

    OJP’s Chief Information Officer (CIO) has requested authority to recruit and hire a senior IT
    Specialist, to direct Information Risk Management activities. OJP will continue to work with
    Department of Justice approving officials with the understanding that the Federal government and
    Department of Justice budgetary and personnel hiring constraints may impact the OCIO’s recruitment
    of this resource. As such, in June 2012, a senior member within the OCIO, and independent of the
    ITSD and IT Operations and Development Division, was assigned the responsibilities of directing near
    term actions related to the finding and overall risk management, as well as conducting regular briefings
    to the Deputy CIO, CIO, and other OJP executives on the status of management response and the
    actions listed here.




                                               - 28 -
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General
U.S. Department of Justice

Assistant Attorney General
Office of Justice Programs
U.S. Department of Justice

We have audited the consolidated balance sheets of the U.S. Department of Justice Office of Justice
Programs (OJP) as of September 30, 2012 and 2011, and the related consolidated statements of net cost and
changes in net position, and the combined statements of budgetary resources (hereinafter referred to as
“consolidated financial statements”) for the years then ended, and have issued our report thereon dated
November 5, 2012. As discussed in Note 1.W to the consolidated financial statements, OJP changed its
presentation for reporting the combined statement of budgetary resources in fiscal year 2012, based on new
reporting requirements under OMB Circular No. A-136, Financial Reporting Requirements.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the consolidated financial statements are free of material misstatement.

The management of OJP is responsible for complying with laws, regulations, contracts, and grant
agreements applicable to OJP. As part of obtaining reasonable assurance about whether OJP’s
consolidated financial statements are free of material misstatement, we performed tests of OJP’s
compliance with certain provisions of laws, regulations, contracts, and grant agreements, noncompliance
with which could have a direct and material effect on the determination of the consolidated financial
statement amounts, and certain provisions of other laws and regulations specified in OMB Bulletin No. 07-
04, including the provisions referred to in Section 803(a) of the Federal Financial Management
Improvement Act of 1996 (FFMIA). We limited our tests of compliance to the provisions described in the
preceding sentence, and we did not test compliance with all laws, regulations, contracts, and grant
agreements applicable to OJP. However, providing an opinion on compliance with those provisions was
not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph, exclusive of those referred to
in FFMIA, disclosed no instances of noncompliance or other matters that are required to be reported herein
under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed no instances in which OJP’s financial management systems did
not substantially comply with the (1) federal financial management system requirements, (2) applicable
federal accounting standards, and (3) application of the United States Government Standard General
Ledger at the transaction level.
                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.


                                                      - 29 -
Independent Auditors’ Report on Compliance and Other Matters
Page 2 of 2




This report is intended solely for the information and use of OJP’s management, the U.S. Department of
Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified parties.




November 5, 2012




                                            - 30 -
          Principal Financial Statements
                and Related Notes

See Independent Auditors’ Report on Financial Statements




                       - 31 -
                                                  U.S. Department of Justice

                                                  Office of Justice Programs

                                                    Consolidated Balance Sheets

                                                 As of September 30, 2012 and 2011





Dollars in Thousands                                                                     2012             2011

ASSETS
    Intragovernmental
       Fund Balance with U.S. Treasury (Note 2)                              $    12,614,717    $   11,287,838
       Accounts Receivable, Net (Note 3)                                               6,642             6,970
       Other Assets (Note 5)                                                          47,203            78,034
    Total Intragovernmental                                                       12,668,562        11,372,842

     Accounts Receivable, Net (Note 3)                                                 4,348             6,056
     General Property, Plant and Equipment, Net (Note 4)                              11,006            12,526
     Advances and Prepayments                                                        693,159         1,009,997
Total Assets                                                                 $    13,377,075    $   12,401,421

LIABILITIES (Note 6)
    Intragovernmental
       Accounts Payable                                                      $         22,536   $      54,240
       Accrued Federal Employees' Compensation Act Liabilities                             69              86
       Other Liabilities (Note 8)                                                     107,620         117,275
    Total Intragovernmental                                                           130,225         171,601

     Accounts Payable                                                                  33,317          24,177
     Accrued Grant Liabilities                                                        436,451         369,245
     Actuarial Federal Employees' Compensation Act Liabilities                            442             680
     Accrued Payroll and Benefits                                                       7,910           8,182
     Accrued Annual and Compensatory Leave Liabilities                                  6,011           6,148
     Capital Lease Liabilities (Note 7)                                                     9              14
Total Liabilities                                                            $        614,365   $     580,047

Contingencies and Commitments (Note 9)

NET POSITION
     Unexpended Appropriations ­ All Other Funds                             $     3,478,217    $    4,605,970
     Cumulative Results of Operations ­ Earmarked Fund (Note 10)                   9,273,109         7,202,248
     Cumulative Results of Operations - All Other Funds                               11,384            13,156
Total Net Position                                                           $    12,762,710    $   11,821,374

Total Liabilities and Net Position                                           $    13,377,075    $   12,401,421




U.S. Department of Justice
                   The accompanying notes are an integral part of these financial statements.


                                                        - 32 -
                                                          U.S. Department of Justice

                                                          Office of Justice Programs

                                                    Consolidated Statements of Net Cost

                                          For the Fiscal Years Ended September 30, 2012 and 2011





Dollars in Thousands

                                      Gross Costs                                 Less: Earned Revenues                               Net Cost of
                          Intra-       With the                              Intra-        With the                                   Operations
             FY        governmental     Public              Total         governmental      Public                 Total               (Note 11)

Goal 2      2012       $    45,938    $    952,857      $   998,795       $        4,839    $             -    $       4,839      $        993,956
            2011       $    43,903    $    960,540      $ 1,004,443       $        7,489    $             -    $       7,489      $        996,954

Goal 3      2012           148,858        2,316,455         2,465,313            22,310                148            22,458             2,442,855
            2011           180,000        2,550,468         2,730,468            35,228                 45            35,273             2,695,195

Total       2012       $   194,796    $ 3,269,312       $ 3,464,108       $      27,149      $         148     $      27,297      $      3,436,811
            2011       $   223,903    $ 3,511,008       $ 3,734,911       $      42,717      $          45     $      42,762      $      3,692,149

          Goal 2   Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law
          Goal 3   Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice at the Federal,
                   State, Local, Tribal, and International Levels




  U.S. Department of Justice
                       The accompanying notes are an integral part of these financial statements.


                                                                 - 33 -
                                             U.S. Department of Justice

                                             Office of Justice Programs

                                    Consolidated Statements of Changes in Net Position

                                      For the Fiscal Year Ended September 30, 2012





Dollars in Thousands

                                                                           2012
                                                Earmarked             All Other
                                                  Funds                Funds                  Total

Unexpended Appropriations
 Beginning Balances                            $             -    $     4,605,970         $    4,605,970

 Budgetary Financing Sources
  Appropriations Received                                    -            1,638,300              1,638,300
  Appropriations Transferred-In/Out                          -               (8,470)                (8,470)
  Other Adjustments                                          -              (55,000)               (55,000)
  Appropriations Used                                        -           (2,702,583)            (2,702,583)
 Total Budgetary Financing Sources                           -         (1,127,753)            (1,127,753)

 Unexpended Appropriations                     $             -    $     3,478,217         $    3,478,217



Cumulative Results of Operations
 Beginning Balances                            $    7,202,248     $        13,156         $    7,215,404

 Budgetary Financing Sources
  Appropriations Used                                        -           2,702,583              2,702,583
  Nonexchange Revenues                               2,795,573                 975              2,796,548

 Other Financing Sources
  Transfers-In/Out Without Reimbursement                     -               2,295                    2,295
  Imputed Financing from Costs Absorbed
     by Others (Note 12)                                    -               4,474                   4,474
 Total Financing Sources                            2,795,573          2,710,327               5,505,900

 Net Cost of Operations                             (724,712)          (2,712,099)            (3,436,811)

 Net Change                                         2,070,861              (1,772)             2,069,089

 Cumulative Results of Operations              $    9,273,109     $        11,384         $    9,284,493

Net Position                                   $    9,273,109     $    3,489,601          $   12,762,710




  U.S. Department of Justice
                 The accompanying notes are an integral part of these financial statements.


                                                   - 34 -
                                            U.S. Department of Justice

                                            Office of Justice Programs

                            Consolidated Statements of Changes in Net Position (continued)

                                    For the Fiscal Year Ended September 30, 2011





Dollars in Thousands

                                                                           2011
                                                  Earmarked           All Other
                                                    Funds              Funds                  Total

Unexpended Appropriations
 Beginning Balances                           $               -   $     5,571,977       $      5,571,977

 Budgetary Financing Sources
  Appropriations Received                                     -          1,893,160              1,893,160
  Appropriations Transferred-In/Out                           -            200,344                200,344
  Other Adjustments                                           -            (45,365)               (45,365)
  Appropriations Used                                         -         (3,014,146)            (3,014,146)
 Total Budgetary Financing Sources                            -          (966,007)              (966,007)

 Unexpended Appropriations                    $               -   $     4,605,970       $      4,605,970

Cumulative Results of Operations
 Beginning Balances                           $     5,866,596     $        12,217       $      5,878,813

 Budgetary Financing Sources
  Appropriations Used                                        -           3,014,146              3,014,146
  Nonexchange Revenues                               1,998,221                 508              1,998,729

 Other Financing Sources
  Transfers-In/Out Without Reimbursement                      -             10,600                 10,600
  Imputed Financing from Costs Absorbed
    by Others (Note 12)                                     -                5,265                  5,265
 Total Financing Sources                            1,998,221           3,030,519              5,028,740

 Net Cost of Operations                              (662,569)         (3,029,580)            (3,692,149)

 Net Change                                         1,335,652                 939              1,336,591

 Cumulative Results of Operations             $     7,202,248     $        13,156       $      7,215,404

Net Position                                  $     7,202,248     $     4,619,126       $     11,821,374




  U.S. Department of Justice
                 The accompanying notes are an integral part of these financial statements.


                                                   - 35 -
                                                  U.S. Department of Justice

                                                  Office of Justice Programs

                                         Combined Statements of Budgetary Resources

                                    For the Fiscal Years Ended September 30, 2012 and 2011





Dollars in Thousands                                                                      2012               2011

Budgetary Resources:

  Unobligated Balance, Brought Forward, October 1                                $      187,462     $      232,500


  Recoveries of Prior Year Unpaid Obligations                                            53,296             54,156
  Other Changes in Unobligated Balance                                                    (2,409)            (2,311)
  Unobligated Balance from Prior Year Budget Authority, Net                             238,349            284,345
  Appropriations (discretionary and mandatory)                                         2,286,418          2,750,112
  Spending Authority from Offsetting Collections (discretionary and mandatory)          196,233             33,249
Total Budgetary Resources                                                        $   2,721,000      $   3,067,706

Status of Budgetary Resources:

  Obligations Incurred (Note 13)                                                       2,543,035          2,880,244
  Unobligated Balance, End of Period:
     Apportioned                                                                        152,618            169,067
     Unapportioned                                                                       25,347             18,395
  Total Unobligated Balance - End of Period                                             177,965            187,462
Total Status of Budgetary Resources:                                             $   2,721,000      $   3,067,706

Change in Obligated Balance:

  Obligated Balance, Net - Brought Forward, October 1
     Unpaid Obligations, Gross                                                   $     5,025,867    $     5,510,847
     Less: Uncollected Customer Payments from Federal Sources                            25,236             25,666
             Total Obligated Balance, Net - Brought Forward, October 1                 5,000,631          5,485,181
  Obligations Incurred                                                                 2,543,035          2,880,244
  Less: Outlays, Gross                                                                 3,237,410          3,311,068
  Change in Uncollected Customer Payments from Federal Sources                            (2,347)              430
  Less: Recoveries of Prior Year Unpaid Obligations                                      53,296             54,156


  Obligated Balance, Net - End of Period
     Unpaid Obligations, Gross                                                         4,278,196          5,025,867
     Less: Uncollected Customer Payments from Federal Sources                            27,583             25,236
  Total Obligated Balance, Net - End of Period                                   $   4,250,613      $   5,000,631



 U.S. Department of Justice
                   The accompanying notes are an integral part of these financial statements.


                                                        - 36 -
                                                    U.S. Department of Justice

                                                    Office of Justice Programs

                                      Combined Statements of Budgetary Resources (continued)

                                      For the Fiscal Years Ended September 30, 2012 and 2011





Budgetary Authority and Outlays, Net:

  Budgetary Authority, Gross (discretionary and mandatory)               $       2,482,651    $       2,783,361
  Less: Actual Offsetting Collections (discretionary and mandatory)               193,886               33,679
  Change in Uncollected Customer Payments from Federal Sources                      (2,347)                430
     (discretionary and mandatory)
  Budget Authority, Net (discretionary and mandatory)                    $    2,286,418         $   2,750,112

  Outlays, Gross (discretionary and mandatory)                           $       3,237,410            3,311,068
  Less: Actual Offsetting Collections (discretionary and mandatory)               193,886               33,679
  Outlays, Net (discretionary and mandatory)                                     3,043,524            3,277,389
  Less: Distributed Offsetting Receipts (Note 14)                                      26                  206
  Agency Outlays, Net (discretionary and mandatory)                      $    3,043,498         $   3,277,183




 U.S. Department of Justice
                   The accompanying notes are an integral part of these financial statements.


                                                        - 37 -
                                 U.S. Department of Justice

                                  Office of Justice Programs

                              Notes to the Financial Statements

              As of and For the Fiscal Years Ended September 30, 2012 and 2011
                          (Dollars in Thousands, Except as Noted)


 1.   Summary of Significant Accounting Policies

      A. Reporting Entity

      The Office of Justice Programs (OJP) is a reporting entity within the U.S. Department of
      Justice (Department or DOJ). The Justice Act of 1984 created OJP to work within
      established partnership arrangements with federal, state and local agencies and
      community-based organizations to develop, operate, and evaluate a wide range of criminal
      and juvenile justice programs. OJP is authorized by Congress to award grants, contracts,
      cooperative agreements, and other assistance authorized by Title I of the Omnibus Crime
      Control and Safe Street Act of 1968. In FY 2012, OJP is funded by several no-year
      appropriations, however in prior years OJP received several no-year, multi-year, and annual
      appropriations.

      The American Recovery and Reinvestment Act of 2009 (Recovery Act) (Public Law [P.L.]
      111-5) was signed into law by President Barack Obama on February 17, 2009. As one of its
      many elements, the Recovery Act provides the DOJ with funding for grants to assist state,
      local, and tribal law enforcement (including support for hiring), to combat violence against
      women, to fight internet crimes against children, to improve the functioning of the criminal
      justice system, to assist victims of crime, and to support youth mentoring.

      OJP is comprised of the following bureaus and program offices:

      Bureau of Justice Assistance (BJA) provides leadership and assistance in support of local
      criminal justice strategies to achieve safe communities. BJA’s goals are to reduce and
      prevent crime, violence, and drug abuse and to improve the functioning of the criminal
      justice system. BJA administers programs that bolster law enforcement operations, expand
      drug courts, and provide benefits to public safety officers.

      Bureau of Justice Statistics (BJS) is the primary statistical agency of the DOJ. BJS
      collects, analyzes, publishes, and disseminates information on crime, criminal offenders,
      crime victims, and criminal justice operations, and provides financial and technical support to
      state, local, and tribal governments to improve their statistical capabilities and the quality and
      utility of their criminal history records.




U.S. Department of Justice
                     These notes are an integral part of these financial statements.


                                                - 38 -
    A.     Reporting Entity (continued)

    National Institute of Justice (NIJ) is the research arm of the DOJ and is dedicated to
    researching crime control and justice issues. NIJ advances the application of science and
    technology to matters of criminal justice by providing objective, independent, evidence-based
    knowledge and tools to meet the challenges posed by crime.

    Office of Juvenile Justice and Delinquency Prevention (OJJDP) supports state and
    community efforts to prevent and respond to juvenile delinquency and victimization.
    Through programs that offer mentoring, provide treatment and rehabilitation, and hold
    juvenile offenders accountable, OJJDP strives to improve the juvenile justice system so that
    the public is better protected, and youth and their families are better served.

    Office for Victims of Crime (OVC) works to enhance America’s capacity to assist crime
    victims by helping to change attitudes, policies, and practices. OVC supports a wide range of
    activities using the Crime Victims’ Fund (CVF), which is composed of federal criminal fines
    and penalties, special assessments, and bond forfeitures. These activities include victim
    compensation and assistance services, training and technical assistance for service providers
    and criminal justice professionals, and program evaluation.

    Office of Sex Offender Sentencing, Monitoring, Apprehending, Registering, and
    Tracking (SMART Office) was authorized by the Adam Walsh Child Protection and Safety
    Act of 2006. The primary assignment of the SMART Office is to ensure that convicted sex
    offenders are prohibited from preying on citizens through an organization of restrictions,
    regulations, and internment. The SMART Office is responsible for establishing and
    maintaining the standards for the Sex Offender Registration and Notification Program, as
    described by the Adam Walsh Act. The SMART Office also oversees grant programs
    regarding sex offender registration and notification.

    OJP Principal Accounts

    In fiscal years (FYs) 2012 and 2011, OJP’s financial structure was comprised of these
    principal accounts: Research, Evaluation, and Statistics (RES) (formerly Justice Assistance);
    State and Local Law Enforcement Assistance (SLLEA); Juvenile Justice Programs (JJ);
    Public Safety Officers’ Benefits (PSOB) Program; Management and Administration, which
    was Salaries and Expenses in FY 2011; and the CVF.




U.S. Department of Justice
                   These notes are an integral part of these financial statements.


                                              - 39 -
    A.    Reporting Entity (continued)

    OJP Goals

    In compliance with the statutory framework of the Government Performance and Results Act
    (GPRA) of 1993 (P.L. 103-62), OJP aligns its programs and activities with Goals 2 and 3 of
    the Attorney General’s strategic goals, which are:

         Goal 2 – Prevent Crime, Protect the Rights of the American People, and Enforce
                  Federal Law
         2.1 Combat the threat, incidence, and prevalence of violent crime
         2.2 Prevent and intervene in crimes against vulnerable populations; uphold the rights of,
             and improve services to, America’s crime victims
         2.3 Combat the threat, trafficking, and use of illegal drugs and the diversion of licit drugs

         Goal 3 – Ensure and Support the Fair, Impartial, Efficient, and Transparent
                  Administration of Justice at the Federal, State, Local, Tribal, and
                  International Levels
         3.1 Promote and strengthen relationships and strategies for the administration of justice
             with state, local, tribal, and international law enforcement
         3.3 Provide for the safe, secure, humane, and cost-effective confinement of detainees
             awaiting trial and/or sentencing, and those in the custody of the federal prison system

    B. Basis of Presentation

    These financial statements were prepared from the books and records of OJP, in accordance
    with the United States generally accepted accounting principles issued by the Federal
    Accounting Standards Advisory Board (FASAB) and presentation guidelines of the Office of
    Management and Budget (OMB) Circular A-136, Financial Reporting Requirements. These
    financial statements are different from the financial reports prepared pursuant to OMB
    directives which are used to monitor and control the use of OJP’s budgetary resources.
    To ensure that the OJP financial statements are meaningful at the entity level and to enhance
    reporting consistency within the Department, Other Assets and Other Liabilities, as defined
    by OMB Circular A-136 have been disaggregated on the balance sheet. These include
    Advances and Prepayments, Accrued Federal Employees’ Compensation Act (FECA)
    Liabilities, Accrued Payroll and Benefits, Accrued Annual and Compensatory Leave
    Liabilities, Accrued Grant Liabilities with the Public, and Capital Lease Liabilities.




U.S. Department of Justice
                    These notes are an integral part of these financial statements.


                                               - 40 -
    C. Basis of Consolidation

    The consolidated/combined financial statements include the accounts of OJP. All significant
    proprietary intra-entity transactions and balances have been eliminated in consolidation. The
    Statements of Budgetary Resources are combined statements for FYs 2012 and 2011, and as
    such, intra-entity transactions have not been eliminated.

    D. Basis of Accounting

    Transactions are recorded on the accrual and budgetary bases of accounting. Under the
    accrual basis, revenues are recorded when earned and expenses are recorded when incurred,
    regardless of when cash is exchanged. Under the budgetary basis, however, funds
    availability is recorded based upon legal considerations and constraints. As a result, certain
    line items on the proprietary financial statements may not equal similar line items on the
    budgetary financial statements.

    E. Non-Entity Assets

    Non-entity assets are assets held by an entity but are not available for use by the entity. OJP
    does not have any non-entity assets.

    F. Fund Balance with U.S. Treasury and Cash

    The Fund Balance with U.S. Treasury includes appropriated funds that are available to pay
    current liabilities and to fund authorized purchase commitments. The U.S. Department of
    Treasury (Treasury) processes the cash receipts and cash disbursements of OJP. OJP’s
    records are reconciled with those of Treasury.

    Available unobligated balances represent amounts that are apportioned for obligation in the
    current fiscal year. Unavailable unobligated balances represent amounts that are not
    apportioned for obligation during the current fiscal year and expired appropriations no longer
    available to incur new obligations. Obligated balances not yet disbursed include undelivered
    orders and unpaid delivered orders.

    G. Accounts Receivable

    Intragovernmental Accounts Receivable result from reimbursable agreements entered into by
    OJP with other federal agencies for various goods and services. Since OJP’s accounts
    receivable balance consists of amounts due by other federal agencies, an allowance for
    doubtful accounts has not been established.




U.S. Department of Justice
                   These notes are an integral part of these financial statements.


                                              - 41 -
    G. Accounts Receivable (continued)

    Accounts Receivable with the Public is an estimate of amounts due from grantees for expired
    grants. OJP evaluates the necessity of establishing the allowance for doubtful accounts based
    on historical trends of collectability of closed grants.

    Pursuant to 28 CFR Part II, OJP has authorized Treasury’s Financial Management Services to
    collect debts on our behalf. When OJP determines that our internal efforts are unsuccessful,
    the debtor is referred to Treasury and a receivable is set-up in our records. The types of debts
    that are normally referred to Treasury are grants and payment programs with the public.

    H. General Property, Plant and Equipment

    The U.S. General Services Administration (GSA) provides the buildings in which OJP
    operates and charges rent equivalent to the commercial rental rates for similar properties.
    Acquisitions of equipment and assets under capital lease costing twenty-five thousand dollars
    or more are capitalized. Depreciation is calculated using the straight-line basis using
    historical cost and a five-year useful life. Equipment with an acquisition cost of less than
    twenty-five thousand dollars is expensed when purchased. Equipment consists primarily of
    computer network components.

    Internal Use Software meeting the cost threshold and useful life criteria is also capitalized.
    Internal Use Software is either purchased off the shelf and modified, internally developed, or
    contractor developed solely to meet the agency’s internal needs. OJP capitalizes the cost of
    internal use software when the development phase costs exceed five hundred thousand
    dollars and the software is expected to have a service life of two or more years. Amortization
    is calculated using the straight-line basis using historical cost and a five-year useful life.

    I. Advances and Prepayments

    Advances and Prepayments, classified as assets on OJP’s Balance Sheet, represent funds
    disbursed to individuals and other organizations for which goods or services have not yet
    been provided. OJP awards grants to various grantees and provides advance payments to
    grantees to meet their cash needs to carry out their programs. Advance payments are
    recorded as “Advances to Grantees” and are adjusted upon grantees’ reporting expenditures
    and/or based on the estimated accrual for unreported expenses. These balances primarily
    consist of funds disbursed to grantees in the Research, Evaluation, and Statistics Grant
    Program, as well as advances for discretionary/non-block grants.

    Advances and Prepayments involving other federal agencies are classified as Other Assets on
    the Balance Sheet.




U.S. Department of Justice
                   These notes are an integral part of these financial statements.


                                              - 42 -
    J. Liabilities

    Liabilities represent actual and estimated amounts likely to be paid as a result of transactions
    or events that have already occurred. However, no liabilities can be paid by OJP without an
    appropriation or other collection of revenue for services provided. Liabilities not covered by
    budgetary resources include liabilities for which an appropriation has not been enacted and
    there is no certainty that it will be enacted.

    Accounts Payable primarily consists of amounts due for goods and services received,
    progress in contract performance, interest due on accounts payable, and other miscellaneous
    payables.

    K. Accrued Grant Liabilities

    Disbursements of grant funds are recognized as expenses at the time of disbursement.
    However, some grant recipients incur expenditures prior to initiating a request for
    disbursement based on the nature of the expenditures. OJP accrues an estimated liability for
    expenditures incurred by grantees prior to their receiving grant funds for the expenditures.
    These estimates are based on the most current information available to OJP at the time the
    financial statements are prepared. OJP’s management has established a process to review
    these estimates in the context of subsequent changes in activity and assumptions, and to
    reflect the impact of these changes as appropriate.

    Estimates for the grant accrual contain assumptions that have an impact on the financial
    statements. The key assumptions used in the grant accrual are: grantees have consistent
    spending patterns throughout the life of the grant, grantees will draw down throughout the
    life of the grant, and the grant has a determined end date. The primary elements of these
    assumptions include, but are not limited to, type of grant that has been awarded, grant period,
    accounting basis used by the grantees, and grant expenditure rate.

    L. Contingencies and Commitments

    OJP is party to various administrative proceedings, legal actions, and claims. The balance sheet
    includes an estimated liability for those legal actions where management and the Chief Counsel
    consider adverse decisions “probable” and amounts are reasonably estimable. However, there are
    cases where amounts have not been accrued because the amounts of the potential loss cannot be
    estimated or the likelihood of an unfavorable outcome is “remote”.




U.S. Department of Justice
                     These notes are an integral part of these financial statements.


                                                - 43 -
    M. Annual, Sick, and Other Leave

    Annual and compensatory leave is expensed with an offsetting liability as it is earned and the
    liability is reduced as leave is taken. At the end of each quarter, the balance in the accrued
    annual leave liability reflects current pay rates and leave balances. Because current or prior
    year appropriations are not available to fund annual and compensatory leave earned but not
    taken, funding will be obtained from future financing sources.

    Sick leave and other types of non-vested leave are expensed as taken.

    N. Interest on Late Payments

    Pursuant to the Prompt Payment Act, 31 U.S.C. 3901-3907, federal agencies must pay
    interest on payments for goods or services made to business concerns after the due date. The
    due date is generally 30 days after the latest of the following dates: (1) date on the invoice,
    (2) date the invoice is received, (3) date when the goods or services are received, or (4) the
    date when the goods or services are accepted.

    O. Retirement Plans

    With few exceptions, employees hired before January 1, 1984, are covered by the Civil
    Service Retirement System (CSRS) and employees hired on or after that date are covered by
    the Federal Employees Retirement System (FERS).

    For employees covered by the CSRS, OJP contributes 7.0 percent of the employee’s gross
    pay for normal retirement. For employees covered by the FERS, OJP contributes
    approximately 11.9 percent of gross pay. All employees are eligible to contribute to the
    Federal Thrift Savings Plan (TSP). For those employees covered by the FERS, a TSP
    account is established and OJP contributes 1.0 percent of gross pay to this plan. In addition,
    for FERS employees, TSP contributions are matched 100.0 percent for the first 3.0 percent
    and 50.0 percent for the 4th and 5th percentage of gross pay. No matching contributions are
    made to the TSP accounts for those employees covered by CSRS. The accompanying
    financial statements do not report CSRS or the FERS assets, accumulated plan benefits, or
    unfunded liabilities, if any, which may be applicable to OJP employees. Such reporting is the
    responsibility of the Office of Personnel Management (OPM).

    Contributions for CSRS, FERS, and other retirement benefits are insufficient to fully fund the
    programs, which are subsidized by the OPM. The Department imputes its share of the OPM
    subsidy, using cost factors OPM provides, and reports the full cost of the programs related to
    its employees.




U.S. Department of Justice
                   These notes are an integral part of these financial statements.


                                              - 44 -
    P. Federal Employee Compensation Benefits

    The Federal Employees’ Compensation Act (FECA) provides income and medical cost
    protection to covered federal civilian employees injured on the job, employees who have
    contracted a work-related occupational disease, and beneficiaries of employees whose death
    is attributable to a job-related injury or occupational disease. Claims incurred for benefits for
    OJP employees under FECA are administered by the U.S. Department of Labor (DOL) and
    are ultimately paid by OJP. The FECA liability consists of two components. The first
    component is based on actual claims paid by the DOL but not yet reimbursed by OJP. OJP
    reimburses the DOL for the amount of actual claims as funds are appropriated for this
    purpose. There is generally a two- to three-year time period between payment by the DOL
    and reimbursement by OJP. As a result, a liability is recognized for the actual claims paid by
    the DOL and to be reimbursed by OJP.

    The second component is the estimated liability for future benefit payments as a result of past
    events. The DOL calculates the liability of the federal government for future compensation
    benefits, which includes the expected liability for death, disability, medical, and other
    approved costs. This method utilizes historical benefit payment patterns related to a specified
    incurred period to predict the ultimate payments related to that period. The projected annual
    benefit payments were discounted to present value. The resulting federal government
    liability was then distributed by the DOL to the agencies. DOJ calculates and distributes
    each bureau’s respective portion of the total DOJ actuarial liability that is recorded for
    reporting purpose only. OJP’s portion of this liability includes the estimated future cost of
    death benefits, workers’ compensation, medical, and miscellaneous cost for approved
    compensation cases for OJP employees.

    Q. Intragovernmental Activity

    Intragovernmental costs and exchange revenue represent transactions made between two
    reporting entities within the federal government. Costs and earned revenues with the public
    represent exchange transactions made between the reporting entity and a non-federal entity.
    The classification of revenue or costs as “intragovernmental” or “with the public” is defined
    on a transaction-by-transaction basis. The purpose of this classification is to enable the
    federal government to prepare consolidated financial statements, not to match public and
    intragovernmental revenue with the costs incurred to produce public and intragovernmental
    revenue.




U.S. Department of Justice
                   These notes are an integral part of these financial statements.


                                              - 45 -
    R.	 Revenues and Other Financing Sources

    OJP receives funding needed to support its activities through no-year, multi-year and annual
    appropriations that may be used, within statutory limits, for operating and capital
    expenditures. In FY 2012, OJP received only no-year appropriations. Additionally, OJP
    earns exchange revenue through inter-agency agreements with other federal entities for
    which OJP provides grant administration services. The majority of the partnering is with
    other DOJ components. Revenues are recognized at the time related program or
    administrative expenses are incurred. For agreements, OJP records its intra-agency
    agreements as either exchange revenue or transfers-in, depending on the corresponding
    treatment by other DOJ components, to facilitate the DOJ-wide elimination process. The
    revenue generated from these reimbursable activities is based on the full cost pricing policy.
    Under full cost pricing, indirect costs and overheads are fully absorbed into the costs of
    activities.

    OJP receives nonexchange revenue for the CVF from collections of fines, penalty
    assessments, and bond forfeitures from defendants convicted of federal crimes. The CVF
    was established by the Victims of Crime Act of 1984 (P.L. 98-473), as amended by the
    Children’s Justice and Assistance Act of 1986 (P.L. 99-401), and reauthorized by the Anti-
    Drug Abuse Act of 1988 (P.L. 100-690). Funds collected are available for obligation subject
    to Congressional limitation where Congress placed an annual cap on funds available for
    distribution.

    S.	 Earmarked Funds

    As defined in Statements of Federal Financial Accounting Standards (SFFAS) No. 27,
    Identifying and Reporting Earmarked Funds, earmarked funds are financed by specifically
    identified revenues, often supplemented by other financing sources, which remain available
    over time. These specifically identified revenues and other financing sources are required by
    statute to be used for designated activities, benefits or purposes, and must be accounted for
    separately from the Government’s general revenues. The CVF is the only OJP fund meeting
    the criteria listed below.

    The three required criteria for an earmarked fund are:

        1. 	 A statute committing the federal government to use specifically identified revenues
             and other financing sources only for designated activities, benefits, or purposes;

        2. 	 Explicit authority for the earmarked fund to retain revenues and other financing
             sources not used in the current period for future use to finance the designated
             activities, benefits, or purposes; and




U.S. Department of Justice
                   These notes are an integral part of these financial statements.


                                              - 46 -
    S.	 Earmarked Funds (continued)

        3.	 A requirement to account for and report on the receipt, use, and retention of the
            revenues and other financing sources that distinguishes the earmarked fund from the
            Government’s general revenues.

    T. 	Allocation Transfer of Appropriations

    OJP is a party to allocation transfers with another federal agency as a transferring (parent)
    entity and with a different federal agency as a receiving (child) entity. Allocation transfers
    are legal delegations by one department of its authority to obligate budget authority and
    outlay funds to another department. A separate fund account (allocation account) is created
    in the U.S. Treasury as a subset of the parent fund account for tracking and reporting
    purposes. All allocation transfers of balances are credited to this account, and subsequent
    obligations and outlays incurred by the child entity are charged to this allocation account as
    they execute the delegated activity on behalf of the parent entity. Generally, all financial
    activity related to these allocation transfers (e.g., budget authority, obligations, outlays) is
    reported in the financial statements of the parent entity, from which the underlying legislative
    authority, appropriations, and budget apportionments are derived.

    OJP, as the parent, is required to transfer seventeen million dollars from the CVF to the U.S.
    Department of Health and Human Services (HHS), in FY 2012. This transfer is required by
    42 U.S.C § 10603a {Sec. 14-4A} for Child abuse prevention and treatment grants.
    Amounts made available by section §10601(d)(2) of this title, for the purposes of this section,
    are to be obligated and expended by the Secretary of HHS for grants under section §5106c of
    this title. The allocation transfer is reported in OJP’s financial statements.

    OJP receives, as a child entity, allocation transfers of appropriations from the Executive
    Office of the President. This transfer is authorized by P.L. 111-117 and P.L. 112-74. Per
    OMB guidance OJP reports all budgetary and proprietary activity for Do Right by Youth
    Pilot transferred from the Executive Office of the President to OJP. Exceptions to the
    general rule discussed above affecting OJP include the Funds transferred from the Executive
    Office of the President to the Department of Justice, for whom the OJP is the child in the
    allocation transfer but, per OMB guidance, will report all activity relative to these allocation
    transfers in OJP’s financial statements.

    U. 	 ax Exempt Status
       T

    As an agency of the federal government, OJP is exempt from all income taxes imposed by
    any governing body whether it be a federal, state, commonwealth, local, or foreign
    government.



U.S. Department of Justice
                   These notes are an integral part of these financial statements.


                                              - 47 -
    V. Use of Estimates

    The preparation of the financial statements requires management to make certain estimates
    and assumptions that affect the reported amounts of assets and liabilities and the reported
    amounts of revenue and expenses during the reporting period. Actual results could differ
    from those estimates.

    The assumptions are continuously reviewed and refined in order to reflect the variance
    between the estimate and actual data. OJP recognizes the sensitivity of the changes in
    assumptions and the impact that the projections can have on estimates.

    W. Reclassifications

    The FY 2011 financial statements were reclassified to conform to the FY 2012 Departmental
    financial statement presentation requirements. OJP has realigned its Statement of Net Cost
    and Note 11, Net Cost of Operations by Suborganization to further align to the revised goal
    structure in accordance with the Department’s Strategic Plan. Also, changes to the
    presentation of the Combined and Combining Statements of Budgetary Resources were
    made, in accordance with guidance provided in OMB Circular A-136, “Financial Reporting
    Requirements” and as such, activity and balances reported on the FY 2011 Combined and
    Combining Statement of Budgetary Resources have been reclassified to conform to the
    presentation in the current year. Certain other prior year amounts have also been reclassified
    to conform with the current year presentation. The reclassifications had no material effect on
    total assets, liabilities, net position, change in net position or budgetary resources as
    previously reported.

    X. Subsequent Events

    Subsequent events and transactions occurring after September 30, 2012 through the date of
    the auditors’ opinion have been evaluated for potential recognition or disclosure in the
    financial statements. The date of the auditors’ opinion also represents the date that the
    financial statements were available to be issued.




U.S. Department of Justice
                   These notes are an integral part of these financial statements.


                                              - 48 -
2.    Fund Balance with U.S. Treasury

The Fund Balance with U.S. Treasury, as reported in the financial statements, represents the
unexpended cash balances in OJP’s accounting records for all OJP Treasury Symbols, as of
September 30, 2012 and 2011. The CVF Fund Balance with Treasury is presented as Special Funds
type.

The unobligated balance for annual, multi-year, and no-year budget authority may be used to incur
new obligations for the purpose specified by the appropriation act. Annual and multi-year budget
authority expires at the end of its period of availability. During the first through the fifth expired
years, the unobligated balance becomes unavailable and may be used to adjust obligations and
disbursements that were recorded before the budgetary authority expired or to meet a legitimate or
bona fide need arising in the fiscal year for which the appropriation was made. The unobligated
balance for no-year budget authority may be used to incur obligations indefinitely for the purpose
specified by the appropriation act.

Under the Status of Fund Balances, the CVF funds unavailable for spending are included in Other
Funds without Budgetary Resources.

An analysis of the balances as of September 30, 2012 and 2011 is provided below:



       As of September 30, 2012 and 2011
                                                                       2012                   2011
       Fund Balances
        Special Funds                                            $     9,359,797          $  7,260,185
        General Funds                                                  3,254,920             4,027,653
          Total Fund Balances with U.S. Treasury                 $    12,614,717          $ 11,287,838

       Status of Fund Balances
         Unobligated Balance - Available                         $       152,618          $    169,067
         Unobligated Balance - Unavailable                                25,347                18,395
         Obligated Balance not yet Disbursed                           4,250,613             5,000,631
         Other Funds (With)/Without Budgetary Resources                8,186,139             6,099,745
           Total Status of Fund Balances                         $    12,614,717          $ 11,287,838




     U.S. Department of Justice
                        These notes are an integral part of these financial statements.


                                                   - 49 -
3.     Accounts Receivable, Net

Accounts Receivable represent the amounts due to OJP, as of September 30, 2012 and 2011, as
shown in the following table. Accounts Receivable with the Public is an estimate of amounts
due from grantees for expired grants and grants that have been referred to Treasury for debt
collection.


       As of September 30, 2012 and 2011
                                                                   2012                   2011
       Intragovernmental
           Accounts Receivable                                $        6,642         $         6,970
             Total Intragovernmental                                   6,642                   6,970

       With the Public
          Accounts Receivable                                          4,348                   6,056
             Total With the Public                                     4,348                   6,056
             Total Accounts Receivable, Net                   $       10,990         $        13,026




4.     General Property, Plant and Equipment, Net

Property, Plant and Equipment, as reported in the financial statements, is recorded at the acquisition
cost, net of accumulated depreciation, as of September 30, 2012 and 2011. In FYs 2012 and 2011,
OJP purchased $3,457 and $4,768 respectively, in property, plant, and equipment. All equipment has
been purchased through non-federal sources. See Note 1.H for method of depreciation, capitalization
thresholds, and useful lives.

      As of September 30, 2012
                                                    Acquisition    Accumulated         Net Book        Useful
                                                      Cost          Depreciation        Value            Life
      Equipment                                   $       8,730    $     (5,329)     $      3,401      5 years
      Assets Under Capital Lease                              27             (26)               1      5 years
      Internal Use Software                             34,659          (27,093)            7,566      5 years
      Internal Use Software in Development                    38                -              38       N/A
      Total                                       $     43,454     $    (32,448)     $     11,006




     U.S. Department of Justice
                            These notes are an integral part of these financial statements.


                                                       - 50 -
4.     General Property, Plant and Equipment, Net (continued)


      As of September 30, 2011
                                                    Acquisition     Accumulated         Net Book          Useful
                                                      Cost          Depreciation         Value              Life
      Equipment                                   $       8,918     $    (5,571)      $      3,347        5 years
      Assets Under Capital Lease                              27             (21)                6        5 years
      Internal Use Software                             33,045          (23,879)             9,166        5 years
      Internal Use Software in Development                      7               -                7         N/A
      Total                                       $     41,997      $   (29,471)      $     12,526




5.     Other Assets

Other Assets represent monies advanced to the United States Marshals Service (USMS), the Offices,
Boards and Divisions (OBDs), the Bureau of Prisons (BOP), and other Federal agencies for inter­
agency agreements. The agreement with the USMS is to help build, expand or renovate correctional
facilities and jails for the confinement of violent offenders. The agreements with the OBDs are for
the administering of the Office of Community Oriented Policing Services grants. The agreements
with the BOP are for training and clearinghouse activities designed to reduce or eliminate incidents
of prison rape.



      As of September 30, 2012 and 2011
                                                                                    2012                 2011
      Intragovernmental
          Advances and Prepayments                                            $     47,203           $   78,034




     U.S. Department of Justice
                            These notes are an integral part of these financial statements.


                                                        - 51 -
6.       Liabilities Not Covered by Budgetary Resources

Liabilities not Covered by Budgetary Resources are liabilities for which Congressional action is
needed before budgetary resources can be provided. These liabilities, as of September 30, 2012 and
2011, are presented in the table below.


      As of September 30, 2012 and 2011
                                                                            2012              2011
      Intragovernmental
        Accrued FECA Liabilities                                        $          69     $       86
        Other Unfunded Employment Related Liabilities                               9             33
          Total Intragovernmental                                                  78            119

      With the Public
       Actuarial FECA Liabilities                                               442               680
       Accrued Annual and Compensatory Leave Liabilities                      6,011             6,148
         Total With the Public                                                6,453             6,828
         Total Liabilities not Covered by Budgetary Resources                 6,531             6,947
         Total Liabilities Covered by Budgetary Resources                   607,834           573,100
         Total Liabilities                                              $   614,365       $   580,047




     U.S. Department of Justice
                        These notes are an integral part of these financial statements.


                                                   - 52 -
7. Leases

Capital leases consist of leased equipment with various expiration dates. The capital lease term dates
do not exceed 2013. The leased equipment is being depreciated in accordance with the length of the
lease. Following is a summary of assets under capital lease and a schedule of minimum lease
payments.


    As of September 30, 2012 and 2011

    Capital Leases                                                          2012               2011

    Summary of Assets Under Capital Lease
     Machinery and Equipment                                           $             27    $           27
     Accumulated Amortization                                                       (26)              (21)
       Total Assets Under Capital Lease (Note 4)                       $              1    $            6




    Future Capital Lease Payments Due
                                                                       Machinery and
     Fiscal Year                                                         Equipment
       2013                                                                        10
        Total Future Capital Lease Payments                                        10
    Less: Executory Costs                                                           1
      FY 2012 Net Capital Lease Liabilities                            $            9
      FY 2011 Net Capital Lease Liabilities                            $           14




                                                                            2012               2011
    Net Capital Lease Liabilities Covered by Budgetary Resources       $              9    $          14




  U.S. Department of Justice
                         These notes are an integral part of these financial statements.


                                                    - 53 -
7.    Leases (continued)
Noncancelable operating leases consist of leased equipment with various expiration dates, which do
not exceed 2015. Following is a schedule of minimum noncancelable operating lease payments that
reflects commitments for lease agreements with terms in excess of one year.


      Future Noncancelable Operating Lease Payments Due

                                                                          Machinery and
      Fiscal Year                                                          Equipment
        2013                                                                          69
        2014                                                                          67
        2015                                                                          56
          Total Future Noncancelable Operating
             Lease Payments                                               $              192



8.     Other Liabilities
Typically, OJP enters into reimbursable agreements to award funds to various grant recipients on
behalf of other federal agencies. Once expenses are incurred by the grantees, the Advances from
Others account balance is reduced. In addition, Other Liabilities include both funded and unfunded
payroll costs. As of September 30, 2012 and 2011, all other liabilities are current and are presented
in the following table:


As of September 30, 2012 and 2011
                                                                              2012                 2011
Intragovernmental
  Employer Contributions and Payroll Taxes Payable                    $            932         $        967
  Other Post-Employment Benefits Due and Payable                                    13                   79
  Other Unfunded Employment Related Liabilities                                      9                   33
  Advances from Others                                                         106,666              116,196
    Total Intragovernmental                                                    107,620              117,275
      Total Other Liabilities                                         $        107,620         $    117,275




     U.S. Department of Justice
                           These notes are an integral part of these financial statements.


                                                      - 54 -
9. Contingencies and Commitments

OJP is a party in various administrative proceedings, legal actions, and claims brought by or against
it. In the opinion of OJP’s management and legal counsel, the ultimate resolution of these
proceedings, actions, and claims, is remote and potential loss is immaterial.

10.   Earmarked Fund

In 1984, Congress enacted the Victims of Crime Act (VOCA), which authorized the establishment of
the CVF and its direct services programs and national-scope training and technical assistance efforts
on behalf of crime victims. In support of VOCA, OJP provides federal leadership for the rights and
needs of crime victims through policy development, funding promising practices, public awareness,
educational activities intended to promote justice for crime victims, and monitoring compliance with
federal victims’ rights statutes. Nonexchange revenue results from assessed criminal fines collected
by the U.S. Courts, the U.S. Army, and the DOJ Office of Debt Collection Management.

CVF receipts are available for obligation subject to Congressional limitation where Congress placed
an annual cap on funds available for distribution.




  U.S. Department of Justice
                       These notes are an integral part of these financial statements.


                                                  - 55 -
10.    Earmarked Fund (continued)

The following table shows the Earmarked Fund, as of and for the fiscal years ended September 30,
2012 and 2011, respectively.

      As of September 30, 2012 and 2011                                    2012                      2011
                                                                     Crime Victims Fund        Crime Victims Fund
      Balance Sheet
       Assets
          Fund Balance with U.S. Treasury                             $      9,359,797         $      7,260,185
          Other Assets                                                          13,666                      275
             Total Assets                                             $      9,373,463         $      7,260,460

       Liabilities
          Accounts Payable                                            $         19,031         $          9,664
          Other Liabilities                                                     81,323                   48,548
              Total Liabilities                                       $        100,354         $         58,212

       Net Position
         Cumulative Results of Operations                             $      9,273,109         $      7,202,248
            Total Net Position                                        $      9,273,109         $      7,202,248
            Total Liabilities and Net Position                        $      9,373,463         $      7,260,460

      For the Fiscal Years Ended September 30, 2012 and 2011

       Statement of Net Cost
           Gross Cost of Operations                                   $        724,712         $        662,569
           Less: Exchange Revenues                                                   -                        -
             Net Cost of Operations                                   $        724,712         $        662,569

       Statement of Changes in Net Position
         Net Position Beginning of Period                             $      7,202,248         $      5,866,596

          Budgetary Financing Sources                                        2,795,573                1,998,221

          Net Cost of Operations                                              (724,712)                (662,569)
          Net Change                                                         2,070,861                1,335,652
          Net Position End of Period                                  $      9,273,109         $      7,202,248




  U.S. Department of Justice
                             These notes are an integral part of these financial statements.


                                                        - 56 -
11. 	 Net Cost of Operations by Suborganization

The following tables show the Net Cost of Operations for each of the DOJ’s goals by
suborganization, for the fiscal years ended September 30, 2012 and 2011, respectively. The
suborganizations are: Research, Evaluation, and Statistics (RES) – formerly Justice Assistance (JA);
State and Local Law Enforcement Assistance (SLLEA); Juvenile Justice Programs (JJ); the CVF;
and Other, which includes the PSOB Program, Management and Administration, which was Salaries
and Expenses in FY 2011, and the Weed and Seed Program.


   For the Fiscal Year Ended September 30, 2012

                                                                                    Suborganizations
                                                      RES               SLLEA             JJ            CVF              OTHER             Consolidated

    Goal 2 Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law

        Gross Cost                                $    65,013       $     75,210     $ 188,734 $ 668,133             $         1,705 $               998,795
        Less: Earned Revenue                              -                  601         3,661       -                           577                   4,839
        Net Cost of Operations                         65,013             74,609       185,073   668,133                       1,128                 993,956

    Goal 3	 Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice at the Federal, State, Local, Tribal, and
            International Levels

        Gross Cost                                    146,100           1,944,160        187,442         56,578             131,033             2,465,313
        Less: Earned Revenue                            8,340              13,598            500              -                  20                22,458
        Net Cost of Operations                        137,760           1,930,562        186,942         56,578             131,013             2,442,855

    Net Cost of Operations                        $ 202,773         $ 2,005,171      $ 372,015 $ 724,711             $      132,141 $           3,436,811




   For the Fiscal Year Ended September 30, 2011

                                                                                    Suborganizations
                                                      RES               SLLEA             JJ            CVF              OTHER             Consolidated

    Goal 2 Prevent Crime, Protect the Rights of the American People, and Enforce Federal Law

        Gross Cost                                $    96,634       $     86,680     $ 158,560 $ 662,569             $              - $         1,004,443
        Less: Earned Revenue                              125              6,410           954         -                            -               7,489
        Net Cost of Operations                         96,509             80,270       157,606   662,569                            -             996,954

    Goal 3	 Ensure and Support the Fair, Impartial, Efficient, and Transparent Administration of Justice at the Federal, State, Local, Tribal, and
            International Levels

        Gross Cost                                    111,719           2,086,685        193,296               -            338,768             2,730,468
        Less: Earned Revenue                            5,895              20,160            (30)              -              9,248                35,273
        Net Cost of Operations                        105,824           2,066,525        193,326               -            329,520             2,695,195

    Net Cost of Operations                        $ 202,333         $ 2,146,795      $ 350,932 $ 662,569             $      329,520 $           3,692,149




  U.S. Department of Justice
                                  These notes are an integral part of these financial statements.


                                                                           - 57 -
12. Imputed Financing from Costs Absorbed by Others

Imputed Inter-Departmental Financing Sources are the unreimbursed (i.e., non-reimbursed and
under-reimbursed) portion of the full costs of goods and services received by OJP from a providing
entity that is not part of the U.S. Department of Justice. In accordance with SFFAS No. 30, Inter-
Entity Cost Implementation Amending SFFAS No. 4, Managerial Cost Accounting Standards and
Concepts, the material Imputed Inter-Departmental financing sources recognized by OJP are the cost
of benefits for the Federal Employees Health Benefits Program (FEHB), the Federal Employees’
Group Life Insurance Program (FEGLI), and the Federal Pension plans that are paid by other federal
entities.

SFFAS No. 5, Accounting for Liabilities of the Federal Government, requires that employing
agencies recognize the cost of pensions and other retirement benefits during their employees’ active
years of service. SFFAS No. 5 requires OPM to provide cost factors necessary to calculate cost.
OPM actuaries calculate the value of pension benefits expected to be paid in the future, and then
determine the total funds to be contributed by and for covered employees, such that the amount
calculated would be sufficient to fund the projected pension benefits. For employees covered by
CSRS, the cost factors are 29.8 percent of basic pay for regular, and 23.2 percent for regular offset.
For employees covered by FERS, the cost factor is 13.7 percent of basic pay for regular.

The cost to be paid by other agencies is the total calculated future costs, less employee and employer
contributions. In addition, other retirement benefits, which include health and life insurance that are
paid by other federal entities, must also be recorded.

There are no material imputed intra-departmental financing sources.



     For the Fiscal Years Ended September 30, 2012 and 2011
                                                                     2012                    2011

     Imputed Inter-Departmental Financing
          Health Insurance                                      $         3,024          $     3,300
          Life Insurance                                                     13                   14
          Pension                                                         1,437                1,951
              Total Imputed Inter-Departmental                   $        4,474          $     5,265




  U.S. Department of Justice
                       These notes are an integral part of these financial statements.


                                                  - 58 -
13.   Information Related to the Statement of Budgetary Resources

Apportionment Categories of Obligations Incurred:

The apportionment categories are determined in accordance with the guidance provided in Part 4
Instructions on Budget Execution of OMB Circular A-11, Preparation, Submission, and Execution of
the Budget. Category A represents resources apportioned for calendar quarters. Category B
represents resources apportioned for the other time periods; for activities, projects, and objectives or
for a combination thereof.


                                                                                                       Total
                                                                Direct              Reimbursable    Obligations
                                                               Obligations           Obligations     Incurred

      For the Fiscal Year Ended September 30, 2012
       Obligations Apportioned Under
         Category A                                        $      2,322,473         $     23,247   $ 2,345,720
         Category B                                                  24,689              172,626       197,315
       Total                                               $      2,347,162         $    195,873   $ 2,543,035

      For the Fiscal Year Ended September 30, 2011
       Obligations Apportioned Under
         Category A                                        $      2,656,815         $     23,840   $ 2,680,655
         Category B                                                 191,296                8,293       199,589
       Total                                               $      2,848,111         $     32,133   $ 2,880,244




Status of Undelivered Orders:

Undelivered Orders (UDO) represent the amount of goods and/or services ordered, which have not
been actually or constructively received. This amount includes any orders which may have been
prepaid or advanced but for which delivery or performance has not yet occurred.


      As of September 30, 2012 and 2011
                                                                        2012                       2011

        UDO Obligations Unpaid                                   $           3,777,217        $    4,569,152
        UDO Obligations Prepaid/Advanced                                       779,592             1,087,842
         Total UDO                                               $           4,556,809        $    5,656,994



  U.S. Department of Justice
                            These notes are an integral part of these financial statements.


                                                       - 59 -
13.    Information Related to the Statement of Budgetary Resources (continued)

Permanent Indefinite Appropriations:

The Public Safety Officers’ Benefits Act of 1976 is generally codified at 42 U.S.C. Chapter 46,
SUBCHAPTER XII.

The PSOB appropriation supports one mandatory and two discretionary programs that provide
benefits to public safety officers who are severely injured in the line of duty, and to the families and
survivors of public safety officers killed or mortally injured in the line of duty.

The PSOB Program offers three types of benefits:

      1.	 Death Benefits, a one-time financial benefit to survivors of public safety officers whose
          deaths resulted from injuries sustained in the line of duty. Under the Hometown Heroes
          Survivors Benefit Act of 2003, survivors of public safety officers who die of a heart attack or
          stroke within 24 hours of stressful, non-routine public safety activities may also qualify for
          death benefits.

      2.	 Disability Benefits, a one-time financial benefit to public safety officers permanently

          disabled by catastrophic injuries sustained in the line of duty.


      3.	 Education Benefits, which provide financial support for higher education expenses (such as
          tuition and fees, books, supplies, and room and board) to the eligible spouses and children of
          public safety officers killed or permanently disabled in the line of duty.

Legal Arrangements Affecting Use of Unobligated Balances:

Unobligated balances represent the cumulative amount of budget authority that is not obligated and
that remains available for obligation under law, unless otherwise restricted. The use of unobligated
balances is restricted based on annual legislation requirements and other enabling authorities. Funds
are appropriated on an annual, multi-year, and no-year basis. Appropriated funds, except no-year,
shall expire on the last day of availability and are no longer available for new obligations.
Unobligated balances in unexpired fund symbols are available in the next fiscal year for new
obligations unless some restrictions have been placed on those funds by law. Amounts in expired
fund symbols are not available for new obligations, but may be used to adjust previously established
obligations.

In FYs 2011 and 2012, the budget authority for the CVF has been limited to $705 million in new
authority, and $50 million in carry forward authority from prior fiscal years.




  U.S. Department of Justice
                         These notes are an integral part of these financial statements.


                                                    - 60 -
13.   Information Related to the Statement of Budgetary Resources (continued)

Statement of Budgetary Resources vs. the Budget of the United States Government:

The reconciliation as of September 30, 2012, is not presented, because the submission of the Budget
of the United States Government (Budget) for FY 2014, which presents the execution of the FY 2012
Budget, occurs after publication of these financial Statements. The Department of Justice Budget
Appendix can be found on the OMB website (http://whitehouse.gov/omb/budget) and will be
available in early February 2013.

The reconciliation of the Statement of Budgetary Resources versus the Budget of the United States
Government, as of September 30, 2011 is presented below:



  For the Fiscal Year Ended September 30, 2011                                                       Distributed
    (Dollars in Millions)                                       Budgetary        Obligations         Offsetting           Net
                                                                Resources         Incurred            Receipts           Outlays
  Statement of Budgetary Resources (SBR)                      $        3,068    $        2,880   $                 -   $      3,277

  Funds not Reported in the Budget:
    Expired Funds                                                        (15)              (2)                     -              -
    Rounding                                                              (2)              (2)                     -              -

  Budget of the United States Government                      $        3,051    $       2,876    $                 -   $      3,277




  U.S. Department of Justice
                                 These notes are an integral part of these financial statements.


                                                            - 61 -
14. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
    Statement of Financing)


For the Fiscal Years Ended September 30, 2012 and 2011

                                                                                    2012                 2011
Resources Used To Finance Activities

   Budgetary Resources Obligated
       Obligations Incurred                                                    $      2,543,035      $    2,880,244
       Less: Spending Authority from Offsetting Collections and
           Recoveries                                                                   249,529              87,405
       Obligations Net of Offsetting Collections and Recoveries                       2,293,506           2,792,839
       Less: Offsetting Receipts                                                             26                 206
       Net Obligations                                                                2,293,480           2,792,633

    Other Resources
       Transfers In/Out Without Reimbursement                                              2,295                10,600
       Imputed Financing from Costs Absorbed by Others (Note 12)                           4,474                 5,265

       Net Other Resources Used to Finance Activities                                     6,769              15,865
Total Resources Used to Finance Activities                                            2,300,249           2,808,498

Resources Used to Finance Items not Part of the Net Cost
  of Operations
       Net Change in Budgetary Resources Obligated for Goods, Services,
          and Benefits Ordered but not Yet Provided                                   1,132,750             883,368
        Resources That Fund Expenses Recognized in Prior Periods (Note 15)                 (416)                (43)
        Budgetary Offsetting Collections and Receipts That do not
          Affect Net Cost of Operations                                                     1,000                  507
       Resources That Finance the Acquisition of Assets                                    (3,356)              (4,768)
       Other Resources or Adjustments to Net Obligated Resources
          That do not Affect Net Cost of Operations                                             -                3,871
Total Resources Used to Finance Items not Part of the Net Cost
   of Operations                                                                      1,129,978             882,935

Total Resources Used to Finance the Net Cost of Operations                     $      3,430,227      $    3,691,433




  U.S. Department of Justice
                            These notes are an integral part of these financial statements.


                                                          - 62 -
14. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
    Statement of Financing) (continued)


For the Fiscal Years Ended September 30, 2012 and 2011

                                                                                    2012                2011

 Components of Net Cost of Operations That Will not Require

   or Generate Resources in the Current Period


    Components That Will Require or Generate Resources
       in Future Periods (Note 15)                                             $               1    $            109

     Depreciation and Amortization                                                         4,922                4,318
     Revaluation of Assets or Liabilities                                                    (47)                 (45)
     Other                                                                                 1,708               (3,666)
 Total Components of Net Cost of Operations That Will not Require or
    Generate Resources in the Current Period                                               6,584                 716

 Net Cost of Operations                                                        $      3,436,811     $    3,692,149




15. Explanation of Differences Between Liabilities not Covered by Budgetary Resources and
    Components of Net Cost of Operations Requiring or Generating Resources in Future
    Periods

Liabilities that are not covered by realized budgetary resources and for which there is no certainty
that budgetary authority will be realized, such as the enactment of an appropriation, are considered
liabilities not covered by budgetary resources. These liabilities totaling $6,531 on September 30,
2012 and $6,947 on September 30, 2011, are discussed in Note 6, Liabilities Not Covered by
Budgetary Resources. Decreases in these liabilities result from current year budgetary resources that
were used to fund expenses recognized in prior periods. Increases in these liabilities represent
unfunded expenses that were recognized in the current period. These increases along with the
change in the portion of exchange revenue receivables from the public, which are not considered
budgetary resources until collected, represent components of current period net cost of operations
that will require or generate budgetary resources in future periods. The changes in liabilities not
covered by budgetary resources and receivables generating resources in future periods are comprised
of the following:




  U.S. Department of Justice
                            These notes are an integral part of these financial statements.


                                                          - 63 -
15. Explanation of Differences Between Liabilities not Covered by Budgetary Resources and
    Components of Net Cost of Operations Requiring or Generating Resources in Future
    Periods (Continued)


For the Fiscal Years Ended September 30, 2012 and 2011
                                                                                       2012             2011
Resources that Fund Expenses Recognized in Prior Periods
 Decrease in Accrued Annual and Compensatory Leave Liabilities                     $        (137)   $            -
 Other
   Decrease in Actuarial FECA Liabilities                                                   (238)                -
   Decrease in Accrued FECA Liabilities                                                      (17)              (43)
   Decrease in Other Unfunded Employement Liabilities                                        (24)                -
     Total Other                                                                            (279)              (43)
     Total Resources that Fund Expenses Recognized in Prior Periods                $        (416)   $          (43)



Components of Net Cost of Operations will Require or Generate Resources in Future Periods
  Increase in Accrued Annual and Compensatory Leave Liabilities                    $           1    $          80
  Other
      Increase in Accrued FECA Liabilities                                                     -               23
      Increase in Other Unfunded Employment Related Liabilities                                -                6
        Total Other                                                                            -               29
        Total Components of Net Cost of Operations That Will Require or
           Generate Resources in Future Periods                                    $           1    $          109




  U.S. Department of Justice
                           These notes are an integral part of these financial statements.


                                                         - 64 -
Required Supplementary Information


            Unaudited





             - 65 -
                                                                                 U.S. Department of Justice

                                                                                 Office of Justice Programs

                                                                          Required Supplementary Information

                                                                      Combining Statement of Budgetary Resources

                                                                      For the Fiscal Year Ended September 30, 2012





Dollars in Thousands                                                                                                                                                          2012

Budgetary Resources:                                                                 RES             SLLEA             JJ               CVF             OTHER            TOTAL

  Unobligated Balance, Brought Forward, October 1                                $     19,912    $       85,747    $        6,869   $     50,441    $      24,493    $      187,462

  Recoveries of Prior Year Unpaid Obligations                                           5,545            32,762             7,005          2,574            5,410            53,296
  Other Changes in Unobligated Balance                                                     -                 639         1,710                -            (4,758)            (2,409)
  Unobligated Balance from Prior Year Budget Authority, Net                            25,457           119,148         15,584            53,015           25,145           238,349
  Appropriations (discretionary and mandatory)                                        128,786          1,101,741       249,272           709,179           97,440          2,286,418
  Spending Authority from Offsetting Collections (discretionary and mandatory)        174,517            13,819          6,768                177            952            196,233
Total Budgetary Resources                                                        $   328,760     $    1,234,708    $   271,624      $   762,371     $    123,537     $    2,721,000


Status of Budgetary Resource s:

  Obligations Incurred (Note 13)                                                      302,089          1,166,244       267,246           712,349           95,107          2,543,035
  Unobligated Balance, End of Period:
    Apportioned                                                                        26,671            65,053          4,378            42,651           13,865           152,618
    Unapportioned                                                                          -              3,411              -             7,371           14,565            25,347
  Total Unobligated Balance - End of Period                                            26,671            68,464          4,378            50,022           28,430           177,965
Total Status of Budgetary Resources:                                             $   328,760     $    1,234,708    $   271,624      $   762,371     $    123,537     $    2,721,000


Change in Obligated Balance:

  Obligated Balance, Net - Brought Forward, October 1
     Unpaid Obligations, Gross                                                   $    335,323    $     2,776,953   $   674,631      $   1,110,000   $     128,960    $     5,025,867
    Less: Uncollected Customer Payments from Federal Sources                           13,848             3,969             5,366             -             2,053            25,236
            Total Obligated Balance, Net - Brought Forward, October 1                 321,475          2,772,984       669,265          1,110,000         126,907          5,000,631
  Obligations Incurred                                                                302,089          1,166,244       267,246           712,349           95,107          2,543,035
  Less: Outlays, Gross                                                                327,677          1,659,878       365,061           696,137          188,657          3,237,410
  Change in Uncollected Customer Payments from Federal Sources                         (4,553)             (632)         1,330                -             1,508             (2,347)
  Less: Recoveries of Prior Year Unpaid Obligations                                     5,545            32,762          7,005             2,574            5,410            53,296


  Obligated Balance, Net - End of Period
    Unpaid Obligations, Gross                                                         304,190          2,250,557       569,811          1,123,638          30,000          4,278,196
     Less: Uncollected Customer Payments from Federal Sources                          18,401             4,601          4,036                -              545             27,583
  Total Obligated Balance, Net - End of Period                                   $   285,789     $    2,245,956    $   565,775      $ 1,123,638     $     29,455     $    4,250,613


Budgetary Authority and Outlays, Ne t:

  Budgetary Authority, Gross (discretionary and mandatory)                       $    303,303    $     1,115,560   $   256,040      $    709,356    $      98,392    $     2,482,651
  Less: Actual Offsetting Collections (discretionary and mandatory)                   169,965            13,187          8,098                177           2,459           193,886
  Change in Uncollected Customer Payments from Federal Sources                         (4,552)             (632)         1,330                -             1,507             (2,347)
     (discretionary and mandatory)
  Budget Authority, Net (discretionary and mandatory)                            $   128,786     $    1,101,741    $   249,272      $   709,179     $     97,440     $    2,286,418


  Outlays, Gross (discretionary and mandatory)                                   $    327,677    $     1,659,878   $   365,061      $    696,137    $     188,657    $     3,237,410
  Less: Actual Offsetting Collections (discretionary and mandatory)                   169,965            13,187             8,098             177           2,459           193,886
  Outlays, Net (discretionary and mandatory)                                          157,712          1,646,691       356,763           695,960          186,398          3,043,524
  Less: Distributed Offsetting Receipts (Note 14)                                          -                 -               -                -               26                 26
  Agency Outlays, Net (discretionary and mandatory)                              $   157,712     $    1,646,691    $   356,763      $   695,960     $    186,372     $    3,043,498




   U.S. Department of Justice



                                                                                     - 66 -
                                                                                     U.S. Department of Justice

                                                                                     Office of Justice Programs

                                                                          Required Supplementary Information

                                                                      Combining Statement of Budgetary Resources

                                                                      For the Fiscal Year Ended September 30, 2011





Dollars in Thousands                                                                                                                                                                   2011

Budge tary Resources:                                                                     RES                 SLLEA            JJ               CVF              OTHER            TOTAL

      Unobligated Balance, Brought Forward, October 1                                $          32,924    $     115,214    $    12,581      $      50,441    $      21,340    $      232,500

      Recoveries of Prior Year Unpaid Obligations                                                8,188           25,617             7,153           8,230            4,968            54,156
      Other Changes in Unobligated Balance                                                         -                -                 -               -             (2,311)            (2,311)
      Unobligated Balance from Prior Year Budget Authority, Net                                 41,112          140,831         19,734             58,671           23,997           284,345
      Appropriations (discretionary and mandatory)                                          220,406            1,231,946       283,045            699,951          314,764          2,750,112
      Spending Authority from Offsetting Collections (discretionary and mandatory)               4,194           14,334             4,693           1,249            8,779            33,249
Total Budgetary Resources                                                            $     265,712        $   1,387,111    $   307,472      $    759,871     $    347,540     $    3,067,706


Status of Budgetary Resources:

      Obligations Incurred (Note 13)                                                        245,800            1,301,364       300,603            709,430          323,047          2,880,244
      Unobligated Balance, End of Period:
          Apportioned                                                                           19,912           84,931             6,843          45,570           11,811           169,067
          Unapportioned                                                                            -                816               26            4,871           12,682            18,395
      Total Unobligated Balance - End of Period                                                 19,912           85,747             6,869          50,441           24,493           187,462
Total Status of Budgetary Resources:                                                 $     265,712        $   1,387,111    $   307,472      $    759,871     $    347,540     $    3,067,706


Change in Obligated Balance:

      Obligated Balance, Net - Brought Forward, October 1
         Unpaid Obligations, Gross                                                   $      311,321       $    3,283,075   $   714,626      $    1,086,783   $     115,042    $     5,510,847
         Less: Uncollected Customer Payments from Federal Sources                               13,773            7,397             1,417             -              3,079            25,666
                Total Obligated Balance, Net - Brought Forward, October 1                   297,548            3,275,678       713,209           1,086,783         111,963          5,485,181
      Obligations Incurred                                                                  245,800            1,301,364       300,603            709,430          323,047          2,880,244
      Less: Outlays, Gross                                                                  213,610            1,781,869       333,445            677,983          304,161          3,311,068
      Change in Uncollected Customer Payments from Federal Sources                                 (75)           3,428          (3,949)              -              1,026               430
      Less: Recoveries of Prior Year Unpaid Obligations                                          8,188           25,617             7,153           8,230            4,968            54,156


      Obligated Balance, Net - End of Period
                Unpaid Obligations, Gross                                                   335,323            2,776,953       674,631           1,110,000         128,960          5,025,867
                Less: Uncollected Customer Payments from Federal Sources                        13,848            3,969             5,366             -              2,053            25,236
      Total Obligated Balance, Net - End of Period                                   $     321,475        $   2,772,984    $   669,265      $   1,110,000    $    126,907     $    5,000,631


Budge tary Authority and Outlays, Net:

      Budgetary Authority, Gross (discretionary and mandatory)                       $      224,600       $    1,246,280   $   287,738      $     701,200    $     323,543    $     2,783,361
      Less: Actual Offsetting Collections (discretionary and mandatory)                          4,120           17,761              745            1,249            9,804            33,679
      Change in Uncollected Customer Payments from Federal Sources                                 (74)           3,427          (3,948)              -              1,025               430
                (discretionary and mandatory)
      Budget Authority, Net (discretionary and mandatory)                            $     220,406        $   1,231,946    $   283,045      $    699,951     $    314,764     $    2,750,112


      Outlays, Gross (discretionary and mandatory)                                   $      213,610       $    1,781,869   $   333,445      $     677,983    $     304,161    $     3,311,068
      Less: Actual Offsetting Collections (discretionary and mandatory)                          4,120           17,761              745            1,249            9,804            33,679
      Outlays, Net (discretionary and mandatory)                                            209,490            1,764,108       332,700            676,734          294,357          3,277,389
      Less: Distributed Offsetting Receipts (Note 14)                                              -                -                 -               -               206                206
      Agency Outlays, Net (discretionary and mandatory)                              $     209,490        $   1,764,108    $   332,700      $    676,734     $    294,151     $    3,277,183




   U.S. Department of Justice



                                                                                         - 67 -
This page intentionally left blank. 





                - 68 -
Required Supplementary Stewardship Information


                   Unaudited





                  - 69 -
This page intentionally left blank. 





                - 70 -
                                                        U.S. Department of Justice

                                                        Office of Justice Programs

                                         Required Supplementary Stewardship Information

                                              Consolidated Stewardship Investments

                                           For the Fiscal Years 2012, 2011, 2010, 2009, and 2008





The Bureau of Justice Assistance administers the Correctional Systems and Correctional Alternatives for
Tribal Lands (CSCATL) and the Violent Offender Incarceration and Truth-In-Sentencing (VOI/TIS)
incentive grant programs. Both programs provide grants for the purposes of building and expanding
correctional facilities and jails to increase secure confinement space for violent offenders and
implementing correctional alternatives to reduce reliance on incarceration. VOI/TIS funds are available
to any of the 50 United States, the District of Columbia, Puerto Rico, U.S. Virgin Islands, American
Samoa, Guam, the Northern Mariana Islands, and recognized Tribal governments; while CSCATL funds
are available to tribes within the 50 states. The Tribal Law and Order Act of 2010 (Public Law 111-211)
expanded the CSCATL grant program scope to include multi-purpose justice centers. The facilities built
or expanded with these funds constitute non-federal physical property. Upon completion, the Bureau of
Indian Affairs of the Department of Interior, and/or tribal grantees are responsible for supporting,
operating, and maintaining the correctional facilities.

The CSCATL strategy broadly addresses tribal justice systems and lends support to tribes that:
    − Are interested in establishing/enhancing (tribal/non-tribal) multi-agency cooperation and 

      collaborations;

    − Are committed to conducting community-wide assessment for purpose of developing a
      comprehensive master plan that encompasses the design, use, capacity, and cost of adult and/or
      juvenile justice sanctions and services;
    − Wish to explore an array of detention and correctional building options, including prototypical or
      quasi-prototypical concepts/designs for local correctional facilities, multipurpose justice centers,
      and regional facilities; and
    − Are interested in learning about/applying community-based alternatives to help control and prevent
      jail overcrowding due to growing problems involving alcohol, substance abuse, and
      methamphetamine.

CSCATL and VOI/TIS funds expended from fiscal years 2008 through September 30, 2012, are as
follows:

Dollars in Thousands                             2012            2011           2010          2009          2008

Recipients of Non-Federal Physical Property:
   Cooperative Agreement Program
     Administered by US Marshals Service $             -     $         -    $         -   $         -   $     1,140
   Grants to Indian Tribes                        97,553          52,339         24,768        14,320         5,094
   Grants to States                                   84          (1,139)        11,389        41,561        59,011
     Total Non-Federal Physical Property     $    97,637     $    51,200    $    36,157   $    55,881   $    65,245




 U.S. Department of Justice




                                                             - 71 -
This page intentionally left blank. 





                - 72 -
Other Accompanying Information

         Unaudited




         - 73 -
This page intentionally left blank. 





                - 74 -
                                                          U.S. Department of Justice
                                                          Office of Justice Programs
                                                     Combined Schedule of Spending
                                                For the Fiscal Year Ended September 30, 2012




Dollars in Thousands                                                             OJP               Total

What Money is Available to Spend?
Total Resources                                                           $         2,721,000 $      2,721,000
Less: Amount Available but Not Agreed to Spent                                        152,618          152,618
Less: Amount Not Available to be Spent                                                 25,347           25,347
Total Amounts Agreed to be Spent                                          $        2,543,035 $      2,543,035



How was the Money Spent?
Personnel Compensation and Benefits
             11xx      Personnel Compensation                             $            68,766 $            68,766
             12xx      Personnel Benefits                                              20,058              20,058
             13xx      Benefits for Former Personnel                                      807                 807
             21xx      Travel & Transportation of Persons                               1,048               1,048
             22xx      Transportation of Things                                           607                 607
Other Program Related Expenses
             23xx      Rent, Communications, and Utilities                             15,317           15,317
             24xx      Printing and Reproduction                                          728              728
             25xx      Other Services                                                 410,519          410,519
             26xx      Supplies and Materials                                             482              482
             31xx      Equipment/IT Software                                            4,597            4,597
             41xx      Grants                                                       2,634,286        2,634,286
             42xx      Insurance Claims and Indemnities                                80,195           80,195
Total Spending                                                                      3,237,410        3,237,410
Amounts Remaining to be Spent                                             $          (694,375) $      (694,375)
Total Amounts Agreed to be Spent                                          $        2,543,035 $      2,543,035




 U.S. Department of Justice




                                                          - 75 -
This page intentionally left blank. 





                - 76 -
Appendix




- 77 -
This page intentionally left blank. 





                - 78 -
                                                                    APPENDIX


              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


       The Office of the Inspector General (OIG) provided a draft of the
Independent Auditors’ Report on Internal Control over Financial Reporting to
the Office of Justice Programs (OJP). OJP’s response is incorporated in the
Independent Auditors’ Report on Internal Control over Financial Reporting of
this final report. The following provides the OIG analysis of the response
and summary of actions necessary to close the report.

Recommendation Number:

1.	   Resolved. OJP concurred with our recommendation. This
      recommendation can be closed when subsequent annual financial
      statement audit testing verifies that OJP has conducted an enterprise-
      wide security configuration assessment of its environments.

2.	   Resolved. OJP concurred with our recommendation. This
      recommendation can be closed when subsequent annual financial
      statement audit testing verifies that OJP has prioritized vulnerabilities
      as part of its ongoing continuous monitoring activities.

3.	   Resolved. OJP concurred with our recommendation. This
      recommendation can be closed when subsequent annual financial
      statement audit testing verifies that OJP management (Chief
      Information Officer and Deputy Chief Information Officer) ensures that
      the baseline configurations and the Vulnerability Management Program
      process for communicating and mitigating vulnerabilities and verifying
      remediations are completed in accordance with OJP policy between
      Information Technology Security Division and Enterprise Applications
      Support Division.




                                     - 79 -
